UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
FILED February 11, 2019

Endre Glenn
Plaintiff — Appellant
v.
BRENNAN H. MOSS;
PIA ANDERSON DORIUS
REYNARD & MOSS LLC

No. 18-4033
(D.C. No. 2:15-CV-00165DN)
(D. Utah)

Defendants - Appelles

ORDER
Before TYMKOVICH, Chief Judge, McKAY and MATHESON, Circuit Judges.
Appellant’s petition for rehearing is denied. Appellant’s “Motion to File Original
Complaint, and Declaration,” which seeks to supplement the record on appeal with
documents not filed in district court, is also denied.
Entered for the Court
/S/
ELISABETH A. SHUMAKER, Clerk

App 1

FILED January 10, 2019

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
Endre Glenn
Plaintiff — Appellant
v.
BRENNAN H. MOSS;
PIA ANDERSON DORIUS
REYNARD & MOSS LLC

No. 18-4033
(D.C. No. 2:15-CV-00165DN)
(D. Utah)

Defendants - Appelles

ORDER AND JUDGMENT*
Before TYMKOVICH, Chief Judge, McKAY and MATHESON, Circuit
Judges.
Endre Glenn, proceeding pro se, appeals from the district court’s grant of
summary judgment in favor of defendants Brennan H. Moss and the law firm of Pia
Anderson Dorius Reynard & Moss on his legal malpractice claim1. Mr. Glenn also

* After examining the briefs and appellate record, this panel has determined unanimously to honor
the parties’ request for a decision on the briefs without oral argument. See Fed. R. App. P. 34(£); 10th
Cir. R. 34.1(G). The case is therefore submitted without oral argument. This order and judgment is
not binding precedent, except under the doctrines of law of the case, res judicata, and collateral
estoppel. It may be cited, however, for its persuasive value consistent with Fed. R. App. P. 32.1 and

10th Cir. R. 32.1.
1 Because Mr. Glenn appears pro se, we construe his filings liberally, but “this court has repeatedly
insisted that pro se parties follow the same rules of procedure that govern other litigants.” Garrett
v. Selby Connor Maddux & Janer, 425 F.3d 836, 840 (10th Cir. 2005) (brackets and internal
quotation marks omitted). “[T]he court cannot take on the responsibility of serving as the litigant’s

App 2

appeals the denial of his post-judgment motions. Exercising jurisdiction under 28 U.S.C.
§ 1291, we affirm.

I.

BACKGROUND

In 2007, Mr. Glenn entered into a real estate purchase contract (REPC) with the
Reeses (the Buyers) to sell a residential property to them. The purchase fell through after
the Buyers obtained an unfavorable appraisal of the property and cancelled the contract.
The Buyers cited a provision in the REPC allowing for cancellation based upon
evaluations and inspections deemed necessary by the Buyers. Since then, Mr. Glenn has
filed three lawsuits concerning the cancelled purchase.
First, Mr. Glenn sued the Buyers in Utah state court for breach of contract,
breach of good faith and fair dealing, and specific performance (the Buyer Action). Mr.
Glenn lost at trial and on appeal. The Utah Supreme Court held that the terms of the
real estate contract were unambiguous and the Buyers were able to cancel the contract
based upon the evaluations and inspections provision in the REPC. Glenn v. Reese, 225
P.3d 185, 192 (Utah 2009).
Second, Mr. Glenn sued Coldwell Banker and his real estate broker, Donna
Kane, in Utah federal district court (the Agent Action) for breach of contract, breach of
good faith and fair dealing, and breach of fiduciary duty, claiming the provision used by
the Buyers to cancel the REPC was non-standard and that Ms. Kane had a duty to point
it out to him and advise of its potential implications. The defendants moved for
summary judgment, and the district court granted the motion. The court found there was
no admissible evidence of damages because they were too speculative; the broker did

attorney in constructing arguments and searching the record.” Id. (internal quotation marks
omitted).

App 3

not have a duty to notify Mr. Glenn of the provision at issue; Mr. Glenn was “charged
with having read the contract,” R. at 630; and he could have countered the provision
before accepting the offer. Mr. Glenn appealed, and we affirmed. Glenn v. Kane, 494
F. App’x 916, 919 (10th Cir. 2012).
Third, Mr. Glenn filed the underlying action in federal district court against the
attorney and his law firm who represented him in the Agent Action. He sued for
professional negligence (legal malpractice), breach of fiduciary duty, breach of contract,
and breach of good faith and fair dealing. Defendants filed a motion for summary
judgment, which the district court granted. Mr. Glenn filed several post- judgment
motions seeking a new trial or relief from judgment, which the district court denied. Mr.
Glenn now appeals the grant of summary judgment to defendants and the denial of his
post-judgment motions.

II.

DISCUSSION

A. Orders Denying Extension to File Expert Report and Granting Summary
Judgment
1.

Legal Background
Mr. Glenn’s principal argument on appeal is that the district court erred in

declining to grant him an extension of time to submit an expert witness report, which,
he claims, would have created a genuine issue of material fact to defeat summary
judgment. We review a decision to deny an extension of time for discovery for abuse of
discretion. See Bolden v. City of Topeka, 441 F.3d 1129, 1149 (10th Cir. 2006);
Davoll v. Webb, 194 F.3d 1116, 1139 (10th Cir. 1999). “As a general rule, discovery
rulings are within the broad discretion of the trial court,” Cole v. Ruidoso Mun. Sch., 43
F.3d 1373, 1386 (10th Cir. 1994), and “will not be disturbed unless the appellate court
has a definite and firm conviction that the lower court made a clear error of judgment or
App 4

exceeded the bounds of permissible choice in the circumstances,” id. (internal quotation
marks omitted).
Mr. Glenn also challenges the summary judgment order. We review the
district court’s grant of summary judgment de novo, viewing the evidence and drawing
all reasonable inferences in favor of the nonmoving party. Birch v. Polaris Indus., Inc.,
812 F.3d 1238, 1251 (10th Cir. 2015). “The court shall grant summary judgment if
there is no genuine dispute as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
2.

Additional Background
Mr. Glenn filed his complaint in March 2015. The district court entered a

scheduling order setting a January 15, 2016, deadline for written discovery and a
February 15, 2016, deadline for fact discovery and submission of expert reports. On
February 10, 2016, Mr. Glenn moved for an extension of time to complete discovery,
noting that he was waiting on a response to his records request to the Utah Division of
Real Estate, which he needed to respond to defendants’ timely-served discovery
requests. The motion did not mention needing additional time to secure expert
witnesses.
Between February 18 and February 23, 2016, more than one month past the
deadline for written discovery, Mr. Glenn served written discovery requests on
defendants and third parties. The magistrate judge eventually granted in part Mr.
Glenn’s motion for extension of time and instructed the parties to complete discovery by
July 1, 2016. She “cautionfed] both parties to follow the rules of procedure” and “urged
[them] to timely comply with [the] Order and the Federal Rules of Civil Procedure for
the duration of this ligation.” R. at 528.
On July 27, 2016, the magistrate judge held a scheduling conference and entered
an amended scheduling order further extending the expert-witness-report deadline to
App 5

September 1, 2016, to accommodate Mr. Glenn. On August 16,2016, Mr. Glenn filed
another motion to extend discovery, requesting additional time to submit expert witness
reports.
On September 23, 2016, the magistrate judge denied this third request for
additional time to conduct discovery, which was filed three weeks after the amended
scheduling order was entered. The magistrate judge explained, “In actuality, [Mr.
Glenn] seeks to amend the scheduling order in this case, which requires a finding of
good cause” under Fed. R. Civ. P. 16, R. at 654.2Mr. Glenn’s motion for extension of
time stated that he was “actively seeking an expert witness to ... defend against the
Defendant’s anticipated motion for summary judgment.” But it did not explain his
inability to secure an expert witness within the already-extended deadlines set by
the court sufficient to establish good cause. Supp. R. at 9-10. The magistrate judge
concluded, because “[Mr. Glenn] has already had two bites at the apple ... there is not
good cause to amend the recently entered Amended Scheduling Order.” R. at 655.
Mr. Glenn objected to this ruling, citing the need for an expert to review
deposition transcripts that he had not yet obtained. The district court overruled Mr.
Glenn’s objection and affirmed the magistrate judge’s order, finding that “deadline
extensions have been liberally granted to Mr. Glenn in the past due to his status as a pro
se litigant” and that Mr. Glenn had failed to “argue or even point out how the [magistrate
judge’s] Order is clearly erroneous or contrary to law.” R. at 1441-42.
On September 30, 2016, even though the magistrate judge had denied Mr. Glenn’s
motion to amend the scheduling order on September 23, 2016, Mr. Glenn filed an
untimely expert witness report, along with another motion to extend the expert witness
report deadline. On February 1, 2017, the magistrate judge denied the motion as
duplicative of the previous motion.
9

Under Fed. R. Civ. P. 16(b)(4), “la] schedule may be modified only for good cause and with the
judge’s consent.”

App 6

3.

Analysis
On appeal, Mr. Glenn challenges the order denying an extension to file an

expert witness report and the order granting summary judgment. He points to a
deposition transcript that he claims his expert needed to review before submitting
his report as the reason for needing an additional extension of time. But the
transcript at issue was available by the time of the scheduling conference on July
27, 2016. R. at 1381-82. Mr. Glenn provides no explanation as to why his proposed
expert could not have reviewed the transcript well before the September 1 deadline
for his expert report, even if the transcript was not yet in a format acceptable for
filing. Moreover, the expert report that was eventually produced did not even
appear to rely on the transcript.
Mr. Glenn also criticizes the district court’s rulings on several motions to
compel and to quash and complains about the defendants’ and third parties’
participation in discovery. But he fails to show good cause sufficient to justify
another discovery extension. As noted above, the magistrate judge extended
discovery deadlines twice to accommodate Mr. Glenn, allowing him approximately
eighteen months from the filing of his complaint to secure expert witnesses.
Because Mr. Glenn “has offered no colorable reason why the discovery
deadline should have been extended,” Bolden, 441 F.3d at 1151, the district court
did not abuse its discretion in finding that Mr. Glenn failed to show good cause
for a third discovery extension. The expert witness report was properly excluded as
untimely and, therefore, it could not create a genuine issue of material fact.
Because there was no genuine issue of material fact and defendants were entitled
to judgment as a matter of law, the district court properly granted summary
judgment to defendants.3
App 7

B

Denial of Post-Judgment Motions

Mr. Glenn filed several duplicative post-judgment motions requesting relief
under Fed. R. Civ. P. 59(a) and 60(b)(2) based on newly discovered evidence and under
Fed. R. Civ. P. 60(b)(3) based on fraud. We affirm the district court’s denial of the
post-judgment motions
1. Newly Discovered Evidence
Mr. Glenn styled his “newly discovered evidence” filings as motions for a new trial
or to reopen the case under Rule 59(a) and for relief from judgment under Rule
60(b)(2). “Technically, [a Rule 59(a)] motion was improper as no trial was
conducted from which a new trial motion could be filed.” Jones v. Nelson, 484 F.2d
1165, 1167 (10th Cir. 1973). Although the district court analyzed Mr. Glenn’s
purported Rule 59(a) motion under that rule, “[bjecause . . . the motion seeks to
alter the substantive ruling of the district court, we construe the plaintiffs motion
as a motion to alter or amend the judgment pursuant to Rule 59(e),” Phelps v.
Hamilton, 122 F.3d 1309, 1324 (10th Cir. 1997). “A party can seek relief based on
newly discovered evidence under either [Rule] 59(e) or 60(b)(2).” FDIC v. Arciero,
741 F.3d 1111, 1117 (10th Cir. 2013). “We review the district court’s decision under
either rule for abuse of discretion.” Id.
“[I]t is well-settled that the requirements for newly discovered evidence are
essentially the same under Rule 59(e) and 60(b)(2).” Id. Relief is available under
either rule only if (l) the evidence was newly discovered since entry of summary
judgment; (2) the moving party was diligent in discovering the new evidence; and
(3) the newly discovered evidence would probably produce a different result. See
Devon Energy Prod. Co. v. Mosaic Potash Carlsbad, Inc., 693 F.3d 1195, 1213 (10th
Cir. 2012) (Rule 59(e)); Dronsejko v. Thornton, 632 F.3d 658, 670 (10th Cir. 2011)
(Rule 60(b)).
App 8

Mr. Glenn proffered three affidavits—from the Buyer, the real estate broker,
and the appraiser in the original Buyer Action. He claims this was newly
discovered evidence showing fraudulent misrepresentation on the part of the
Buyers. But these affidavits were part of the state court record in the Buyer Action.
Mr. Glenn could have discovered and proffered them well before summary
judgment was entered in this case. Because Mr. Glenn cannot meet the newly
discovered evidence standard contemplated by Rules 59 and 60, the district court
did not abuse its discretion in denying the motions.

Q

Mr. Glenn also contends the district court’s entry of summary judgment violated
his Seventh Amendment right to a jury trial. But as we have explained, summary
judgment was appropriate here, and “[t]he Seventh Amendment is not violated by proper
entry of summary judgment, because such a ruling means that no triable issue exists to be
submitted to a jury.” Shannon v. Graves, 257 F.3d 1164, 1167 (10th Cir. 2001).

App 9

2. Fraud
Mr. Glenn’s post-judgment filings also alleged claims under Rule 60(b)(3),
which allows for relief from judgment due to “fraud, misrepresentation, or
misconduct by an opposing party,” Fed. R. Civ. P. 60(b)(3). We review the district
court’s denial of a Rule 60(b) motion for abuse of discretion. Zurich N. Am. v.Matrix
Serv., Inc., 426 F.3d 1281, 1289 (10th Cir. 2005).
In Mr. Glenn’s request for relief in the district court, he argued the Buyers
behaved fraudulently and materially misrepresented themselves. The district court
denied the motions, finding Mr. Glenn failed to “showD fraud, misrepresentation, or
misconduct by the defendants [in this case] to justify relief from judgment.” R. at
1880; see also id. at 1831 (same). On appeal, Mr. Glenn has abandoned this
argument and instead contends he is entitled to Rule 60(b)(3) relief based on 47
exhibits to his original complaint that “[apparently . . . vanished which only
benefited the defendant/appellee.” Aplt. Br. at 22.
This argument was not raised in the district court. “Generally, [we] will not
consider an issue raised for the first time on appeal,” Tele-Commc ’ns, Inc. v. Comm V,
104 F.3d 1229, 1232 (10th Cir. 1997). “[W]e should not be considered a second-shot
forum, a forum where secondary, back-up theories may be mounted for the first time.”
Id. at 1233 (internal quotation marks omitted). Mr. Glenn argues that “extenuating
circumstances prevented him from presenting the issue at the trial level” because he
“was not aware of ‘Fraud upon the Court’ until he received the March 13, 2018
Appellate Record where he noticed the complaint he filed on March 15, 2015 did not
include the 47 Exhibits filed with the case.” Reply Br. at 7.
Even accepting Mr. Glenn’s reason for failing to raise this argument in the
district court, we conclude he has waived it due to inadequate briefing. Mr. Glenn’s new
fraud argument, which consists of the wholly unsupported claim that defendants
App 10

“ensured this evidence was excluded,” Aplt. Br. at 4, and “subverted evidence by
removing the 47 exhibits filed with the court,” Reply Br. at 7, amounts to no more than
“[m]ere conclusory allegations^ which] ... does not constitute adequate briefing,”
MacArthur v. San Juan Cty., 495 F.3d 1157, 1160-61 (10th Cir. 2007) (internal
quotation marks omitted). Accordingly, the district court did not abuse its discretion in
denying Mr. Glenn’s Rule 60(b)(3) motions.

III. CONCLUSION
We affirm the district court’s judgment.
Entered for the Court
Scott M. Matheson, Jr.
Circuit Judge

App 11

This opinion is subject to revision before finalpublication in the Pacific Reporter.
IN THE SUPREME COURT OF THE STATE
OF UTAH
----ooOoo----

Endre’ Glenn and Margret Glenn,
Plaintiffs and Appellants,

No.

20080861

v.
Robin Reese and Judith Reese
Defendants and Appellees.

FILED
December 11, 2009

Fourth District, Provo Dep’t
The Honorable Samuel D. McVey No. 080400977
Attorneys^

Jason K. Nelsen, Salt Lake City, for plaintiffs Karra J.
Porter, Salt Lake City, for defendants

DURHAM. Chief Justice:
INTRODUCTION

f1

This action stems from a Real Estate Purchase Contract (REPC)

executed between Robin and Judith Reese (Buyers) and Endre and Margret Glenn
(Sellers) in December 2007. We are asked to determine if the district court erred in
refusing to grant summary judgment for the Sellers because the REPC is
ambiguous and cannot be interpreted as a matter of law. Specifically, we must
decide whether the REPC affords Buyers a means to cancel the REPC because of
an appraisal below the purchase price listed in the REPC. Sellers argue that,
though the REPC is unambiguous, it only permits cancellation based on an
App 13

appraisal obtained by a lender. Buyers argue that the REPC allows them to
request and obtain their own appraisal and cancel the REPC based on their
dissatisfaction with that appraisal.

112

We hold that the REPC is unambiguous and is broad enough to

allow cancellation based on an unsatisfactory appraisal obtained by Buyers.
Because of this holding, we must also decide if Buyers complied with the REPC’s
cancellation procedure when they submitted to Sellers two addenda to the REPC.
We conclude that Buyers did not breach the REPC and are entitled to summary
judgment. We therefore remand to the district court for entry of summary
judgment and an award of attorney fees in favor of Buyers.

BACKGROUND
If 3

On December 19, 2007, Buyers offered to purchase Sellers’ home (the

Property) for $540,000. After some negotiation, the parties executed a REPC. The
REPC indicates that Buyers would finance the purchase with $410,000 in cash and
$130,000 in a conventional loan from a lender. The REPC also includes two
provisions regarding conditions based on an appraisal or evaluation of the Property.
First, Section 2.4 of the REPC containes an “Appraisal Condition” that allows
Buyers to cancel the REPC if the Property appraises for less than the purchase
price. Section 2.4 reads:
2.4 Appraisal Condition. Buyer’s obligation to purchase the Property is
conditioned upon the Property appraising for not less than the Purchase
Price. This condition is referred to as the “Appraisal Condition.” If the
Appraisal Condition applies and the Buyer receives written notice from the
Lender that the Property has appraised for less than the Purchase Price (a
“Notice of Appraised Value”), Buyer may cancel this contract by providing a
copy of such written notice to Seller no later than three days after Buyer’s
receipt of such written notice.
App 14

Second, Section 8 conditions Buyers’ obligation to purchase the Property upon
approval of certain evaluations, including a physical condition inspection and the
availability of homeowner’s insurance. Specifically, Section 8(e) conditions
purchase upon “[a]ny other [test or evaluation] deemed necessary by buyers.” In
the event that Buyers are dissatisfied with one of these evaluations, Section 8.2
provides that Buyers may submit to Sellers either a notice of intent to cancel or a
written notice of objections. If Buyers submit a notice of objections, Section grants
the parties seven calendar days (the Response Period) to resolve these objections.
If the parties fail to agree on a method to resolve these objections, Buyer may then
cancel the REPC within three days after the Response Period expires.
14

On December 27, 2007, Buyers’ agent engaged JMS Group

Appraising to conduct an appraisal of the Property. The appraisal placed the
value of the Property at $80,000 below the purchase price. Because Buyers
estimated they could pay cash for the Property if priced at this lower value, they
neither applied nor received a loan from a lender. After receiving the appraisal on
December 28, 2007, Buyers, through their agent, sent Addendum No. 3 to Sellers
on the same day. Addendum No. 3 stated:
1.
2.

[3].

Purchase price to be $460,000 per appraised
value.
If seller does not agree to the new purchase price contract will be
canceled.
Earnest Money to be returned to Buyers.

The Addendum gave Sellers until 6:00 p.m. on the following day to accept. Sellers
did nothing. After the deadline passed without an answer from Sellers, Buyers
submitted Addendum No. 4 on December 31, 2007, which stated:
1.
2.

Seller has failed to respond to addendum #3. Buyers are canceling this
contract based upon the appraised value coming in at 460,000 and the
seller not accepting the value as the purchase price.
Earnest money of $5000.00 to be released to Buyers.
App 15

Though Sellers did not sign Addendum No. 4, Sellers’ broker placed the Property
back on the market on January 2, 2008 and sent an Earnest Money Release Form
to Buyers’ agent on January 4, 2008.
1f5

In March 2008, Sellers filed a complaint against Buyers, which was

later amended. In the amended complaint, Sellers asserted causes of action for
breach of contract and breach of the implied covenant of good faith and fair
dealing, and sought specific performance of the REPC as their sole remedy. Both
parties filed motions for summary judgment. The district court, at oral argument,
denied both motions on the ground that the REPC was ambiguous. Sellers filed a
petition for permission to appeal from an interlocutory order, pursuant to Rule 5
of the Utah Rules of Appellate Procedure, contesting the district court’s denial of
their motion for summary judgment. We granted the petition and have
jurisdiction over this interlocutory appeal pursuant to Utah Code section 78A-3102(3)(j) (2008).

STANDARD OF REVIEW

1f6

The propriety of a grant or denial of summary judgment is a question

of law, which we review for correctness. R&R Indus. Park. L.L.C. v. Utah Prop. &
Cas. Ins. Guar. Ass’n. 2008 UT 80,1f 18, 199 P.3d 917. In doing so, we view “the
facts and all reasonable inferences drawn therefrom in the light most favorable to
the nonmoving party.” Id. (quoting Orvis v. Johnson. 2008 UT 2, f 6, 177 P.3d
600).

ANALYSIS
App 16

V

The issue presented in this case is whether the district court erred in

denying summary judgment on the basis that the REPC is ambiguous. If we
conclude the REPC is unambiguous, we may interpret it as a matter of law and
then must determine if Section 2.4 of the REPC contains Buyers’ only means of
cancellation for an appraisal below the purchase price or if Section 8’s “other
evaluations” is broad enough to allow such a cancellation. Furthermore, we must
determine how or if Addendum No. 3 and Addendum No. 4 effected either of these
sections. Sellers concede that if the REPC can be interpreted as a matter of law it
may be interpreted in favor of Buyers.

118

We hold that the REPC is unambiguous and can be interpreted as a

matter of law because “other evaluations” under Section 8 includes an appraisal
procured by a buyer. We also hold that Addendum No. 3 to the REPC is an offer to
modify the REPC, which became a nullity upon Sellers’ refusal to accept. Thus,
Buyers’ Addendum No. 4 successfully cancelled the REPC.
I.

19

THE REPC IS UNAMBIGUOUS AND CAN BE INTERPRETED AS A
MATTER OF LAW
Both Sellers and Buyers argue that the REPC is unambiguous.

Specifically, Sellers contend that Section 2.4 contains Buyers’ only avenue for
cancellation upon receipt of the appraisal below the purchase price and that
Section 8 cannot be read to allow cancellation for the unfavorable appraisal. In
contrast, Buyers assert that Section 2.4 and Section 8 are mutually exclusive.
They argue that Section 2.4 applies only to cancellations based on an appraisal
obtained by a lender and Section 8 applies to cancellations based on appraisal
obtained by a self-financed buyer.

App 17

If 10

Well-accepted rules of contract interpretation require that we

examine the language of a contract to determine meaning and intent. Cafe Rio. Inc,
v. Larkin-Gifford-Qverton, LLC. 2009 UT 27, If 25, 207 P.3d 1235. Where the
language is unambiguous, “the parties’ intentions are determined from the plain
meaning of the contractual language, and the contract may be interpreted as a
matter of law.” IcL (internal quotation marks omitted). We will also “consider each
contract provision ... in relation to all of the others, with a view toward giving
effect to all and ignoring none.” Ich (ellipses in original) (internal quotation marks
omitted). The court considers extrinsic evidence of the parties’ intent only if the
language of the contract is ambiguous. Id._A contractual term or provision is
ambiguous “if it is capable of more than one reasonable interpretation because of
uncertain meanings of terms, missing terms, or other facial deficiencies.” hh
(internal quotation marks omitted). When determining whether the plain
language is ambiguous, “we attempt to harmonize all of the contract’s provisions
and all of its terms.”Cent. Fla. Invs.. Inc, v. Parkwest Assocs.. 2002 UT 3, ^ 12, 40
P.3d 599.
f 11

Though Sellers argue that Section 2.4 provides Buyers’ only means of

cancellation due to an appraisal less than the purchase price, a plain reading of
the language in Section 2.4 and Section 8 indicates otherwise. Section 2.4 clearly
delineates the method for cancellation based on an unsatisfactory appraisal
obtained by a lender. First, a lender must request an appraisal and provide a
written notice to the buyer indicating that the property appraised for less than the
purchase price. Then, if the buyer wishes to cancel, she must provide a copy of the
written appraisal notice to the seller within three days. Thus, it is clear that a
party without a lender cannot comply with this provision because it cannot obtain
the requisite appraisal notice.

App 18

Tfl2

In this case, Buyers did not comply with Section 2.4 because

they did not have a lender. After the home appraised at $80,000 below the
purchase price, Buyers felt they could afford to pay the lower appraised
value of the home without resorting to a lender. Therefore, they did not
apply for a loan, and no lender requested an appraisal on their behalf.
Sellers would have us hold that because Buyers did not comply with Section
2.4, no other section of the REPC grants them the right to cancel the
contract upon receipt of the unfavorable appraisal. We disagree.
*[{13 We hold that the evaluation provision in Section 8 is broad
enough to encompass an appraisal obtained by a self- financed buyer.
Section 8 reads:
Buyer’s obligation to purchase under this Contract:
(a)
IS conditioned upon Buyer’s approval of the content of all
the Seller Disclosures referenced in Section 7!
(b)
IS conditioned upon Buyer’s approval of a physical
condition inspection of the Property!
(d)
IS conditioned upon Buyer’s approval of the cost, terms
and availability of homeowner’s insurance coverage for the Property!
(e)
IS conditioned upon Buyer’s approval of the following
tests and evaluations of the Property: (specify) Any other deemed necessary
by buyers.

Under this language, the question is whether an appraisal qualifies as a type of
“test” or “evaluation” deemed necessary by the buyer. In its common and ordinary
usage, “appraise” means “[t]o determine the value of’ or “[t]o estimate the worth or
features of.” Webster’s II New College Dictionary 55 (1995). Additionally,
“evaluate” means “[t]o determine or fix the value of’ or “[t]o examine carefully .’’Id.
at 388. Furthermore, “appraise” is a synonym in the definition of “evaluate.” Id.
It is clear that the plain meanings of these terms are so similar as to be used

App 19

interchangeably without confusion. Thus, an appraisal is an evaluation under
Section 8.
114

Accordingly, because Section 8 gives a buyer the contractual right to

obtain an appraisal, a buyer also has the corresponding right to cancel the REPC
upon dissatisfaction with the appraised value. The language in Section 8 is clearly
sufficient to treat an appraisal as an evaluation and to allow a cancellation based
on the unsatisfactory appraisal.1
115

Despite this reasonable interpretation, Sellers maintain that an

appraisal is not a type of evaluation

116

Because the plain language of the contract allows no other reasonable

interpretation, we hold that the REPC is unambiguous and can be interpreted as a
matter of law.

Furthermore, we hold that the REPC affords Buyers two

opportunities to cancel the contract based on an unfavorable appraisal: (l) when

l

To contradict this plain language, Sellers would have us apply two rules of construction;
neither changes the outcome. Sellers argue that the rule of ejusdem generis alters the analysis
because the general term “evaluations” must be interpreted to refer to evaluations and inspections
similar to those types specifically listed in Section 8. See Cafe Rio. Inc, v. Larkin-Gifford-Overton.
LLC. 2009 UT 27, ^ 25, 207 P.3d 1235. But application of this rule shows that an appraisal, as an
“evaluation,” is similar to the evaluations and inspections specifically enumerated, namely, “a
physical condition inspection of the Property” and “a survey of the Property.” Therefore, this rule of
construction bolsters our conclusion. Nor are we convinced by Sellers’ argument that the specific
provision of Section 2.4 governs the general provision of Section 8. Even if the appraisal condition
of Section 2.4 is more specific than the appraisal condition of Section 8, Section 2.4 states that
“Cancellation pursuant to the provisions of any other section of this Contract shall be governed by
such other provisions.” Consequently, Section 2.4 allows other provisions, regardless of specificity,
to govern, contemplated by Section 8. But Sellers’ interpretation would compel us to ignore the
plain language of the contract. We decline to do this. As such, under Section 8, the Buyers had the
right to request an appraisal and cancel the REPC upon dissatisfaction with that appraisal. Any
other interpretation would require a strained reading and judicial contortion exceeding the bounds
of reason. Furthermore, this interpretation allows each provision to have effect and does not
produce absurd or harsh results.

App 20

the appraisal is obtained by a third-party lender as described in Section 2.4; or (2)
when the appraisal is obtained by the buyer as described in Section 8. Because
Section 2.4 does not govern the appraisal here, Buyers were not required to submit
a written notice of appraisal value to Sellers to cancel the contract.2
11.

117

ADDENDUM NO. 3 OPERATED AS AN OFFER TO MODIFY THE
CONTRACT AND BECAME A NULLITY UPON EXPIRATION OF
THE TIME PERIOD LISTED
Sellers argue that even if Section 8 of the REPC allows Buyers to

cancel upon receipt of an unsatisfactory appraisal, Buyers failed to comply with
the requirements of Section 8. Specifically, Sellers assert that Buyers had only
two options if they found any inspection or evaluation unacceptable: (l) cancel the
REPC through a written notice of cancellation; or (2) provide Sellers with a written
notice of objections, which would have triggered a seven-day period that allowed
Sellers to respond before Buyers could cancel. Sellers further claim that
Addendum No. 3 cannot operate as a cancellation because it is not clear and
unequivocal. Therefore, according to Sellers, Addendum No. 3 could operate only
as a notice of objections and there was consequently a breach of the REPC when
Buyers prematurely submitted the unequivocal cancellation in Addendum No. 4. In
contrast, Buyers argue that Addendum No. 3 was an offer to renegotiate that
became inoperable upon Seller’s failure to assent.
If 18

We agree with Buyers; Addendum No. 3 operated as neither a

cancellation nor a written notice of objections. Instead, it was an offer to modify
the contract and became a nullity upon refusal.

Hence, the original terms of

2We note that this debate about cancellation based on an appraisal has largely been resolved by the
newly revised, state approved REPC form. The revision eliminates Section 2.4 and provides an
appraisal condition in Section 8 that allows the buyer to cancel the REPC upon notice from a lender
or directly from an appraiser that the property has appraised for less than the purchase price
renegotiate that became inoperable upon Sellers’ failure to assent.

App 21

the contract remained in force until Buyers cancelled the REPC by submitting
Addendum No. 4 to Sellers.
119

It is generally accepted that a notice of termination or cancellation of

a contract must be clear and unequivocal. 17B C.J.S. Contracts § 446 (2009); see
Gray v. Bicknell. 86 F.3d 1472, 1479 (8th Cir. 1996) (applying Missouri law);
Morris Silverman Mgmt. Corn, v. W. Union Fin. ServS., Inc.. 284 F. Supp. 2d 964,
974 (N.D. Ill. 2003); In re Greater Se. Cmtv. Hosn. Found.. Inc.. 267 B.R. 7, 18
(Bankr. D.C. 2001); Stovall v. Publishers Paper Co.. 584 P.2d 1375, 1377-78 (Or.
1978); Accu- Weather. Inc, v. Prospect Commc’ns. Inc.. 644 A.2d 1251, 1254 (Pa.
Super. Ct. 1994). Furthermore, “a notice of rescission must be not only
unequivocal but unconditional.” Stovall. 584 P.2d at 1378. The focus of any inquiry
into the adequacy of cancellation “is on whether the notice is sufficiently clear to
apprise the other party of the action being taken.” LA-Nevada Transit Co. v.
Marathon Oil Co.. 985 F.2d 797, 800 (5th Cir. 1993). Furthermore, conduct of the
parties may be considered to determine if a clear and unequivocal cancellation has
occurred. Morris Silverman. 284 F. Supp. 2d at 974. “Ambiguous conduct and
language intended to signal contract termination will be deemed not to have
terminated the contract.” Accu-Weather. 644 A.2d at 1254 (internal quotation
marks omitted). Though we have yet to recognize these principles, neither we nor
the parties have found any case law indicating that Utah should not follow these
general rules.
If 20

The inclusion of negotiation language in Addendum No. 3 and the

conduct of the parties following its delivery illustrate that Addendum No. 3 was
not a clear and unequivocal cancellation of the REPC. First, in Addendum No. 3,
Buyers communicated their willingness to negotiate as well as their interest in
cancellation. The commingling of a wish to cancel with a desire to negotiate and
save the contract cannot be seen as an unequivocal notice of cancellation. Stovall.
App 22

584 P.2d at 1380 (“By mixing words of termination with words of compromise,
negotiations, and present obligation, the . . . [written instrument], when read as a
whole, was ambiguous, and as a matter of law did not meet the requirements
which must be satisfied for a legally effective notice of the termination of the
contract.”). If Sellers had chosen to engage in such negotiations, Addendum No. 3
would not have operated to cancel the contract.
1f2l

Moreover, Buyers’ submission of Addendum No. 4 and Sellers’ release

of the earnest money after receipt of Addendum No. 4 illustrate that neither party
considered the REPC cancelled after Addendum No. 3. If Sellers had considered
the contract cancelled after Addendum No. 3 the earnest money should have been
returned following the expiration of the negotiation period specified in Addendum
No. 3. Similarly, if Buyers had considered Addendum No. 3 sufficient to cancel the
REPC as well as their obligations under it, they would not have felt the need to
transmit Addendum No. 4. Both parties’ conduct after the submission of
Addendum No. 3 illustrates that neither considered Addendum No. 3 sufficient to
cancel the REPC. Accordingly, we agree with Sellers that Addendum No. 3 is not a
clear and unequivocal intent to cancel.
T[22

However, we do not agree with Sellers’ argument that Addendum No.

3, if not a cancellation, must be a notice of objections.While Section 8.2 gives
Buyers the right to cancel or submit a notice of objections upon an unsatisfactory
evaluation, nothing in the contract prevented Buyers from taking an altogether
different course of action. In this case, Buyers attempted to renegotiate.
If23

Parties to a written contract have the right to modify, waive, or make

new contractual terms. Softsolutions. Inc, v. Brigham Young Univ.. 2000 UT 46, f
34, 1 P.3d 1095. This is true even despite the presence of “express contractual
language to the contrary.” IdJ see also Rapp v. Mountain States Tel. & Tel. Co..
App 23

606 P.2d 1189, 1191 (Utah 1980) (“It is well-settled law that the parties to a
contract may, by mutual consent, alter all or any portion of that contract by
agreeing upon a modification thereof.”); Cheney v. Rucker. 381 P.2d 86, 89 (Utah
1963) (“It is fundamental that where parties have rights under an existing contract
they have exactly the same power to renegotiate terms ... as they had to make the
contract in the first place.”). This right to renegotiate was illustrated in an
analogous case, Scott v. Majors. 1999 UT App 139, 980 P.2d 214.
124

In Scott, the trial court ordered the seller to sell her property

according to the terms of a REPC, but deferred ruling on attorney fees, costs and
damages. Id. 1 2. In an attempt to negotiate these costs and fees, the buyer asked
the seller to sign a mutual release agreement providing for $5,000 to the buyer as
costs, damages, and attorney fees. IcL 1 3. The seller refused to agree and, in a
subsequent appeal, argued that the buyer repudiated the contract by conditioning
his performance of the REPC on her consent to the mutual release agreement. IcL
1 17.The court held that the proposal “was an offer to modify the original contract
which [the seller] rejected, leaving the original contract in full force.”

lit 18.
125

We agree with this reasoning. Rather than a written notice of

objections, Addendum No. 3 was an offer to modify and thus an attempt to
renegotiate a contract term. This is evidenced by the language of Addendum No. 3,
which reads, in part:
Seller shall have until 6:00 PM Mountain Time on December 29, 2007 to
accept the terms of this ADDENDUM in accordance with the provisions of
Section 23 of the REPC. Unless so accepted, the offer as set forth in this
ADDENDUM shall lapse.
Section 23 of the REPC reads:

App 24

ACCEPTANCE. “Acceptance” occurs when Seller or Buyer, responding to an
offer or counteroffer of the other: (a) signs the offer or counteroffer where
noted to indicate acceptance! and (b) communicates to the other party or to
the other party’s agent that the offer or counteroffer has been signed as
required.
Because Sellers did not sign the addendum, they failed to accept the offer to
modify. Consequently, the offer lapsed and never became part of the contract.
T}26

We hold that Addendum No. 3 was neither a cancellation nor a

written notice of objections, but an offer to modify that became a nullity. Buyers
therefore retained the right to cancel based on an unsatisfactory evaluation under
the REPC until January 5, 2008, the Evaluations & Inspections Deadline.
Buyers’ submission of Addendum No. 4, an unequivocal notice of intent to cancel,
to Sellers on December 31, 2007, complied with Section and thus cancelled the
REPC and all Buyers’ obligations thereunder.

CONCLUSION
1}27

We conclude that the REPC is unambiguous and can be

interpreted as a matter of law. Furthermore, we hold that Section 8 of the
REPC is broad enough to include an appraisal obtained by a self-financed
buyer. Also, we hold that Addendum No. 3 was an offer to modify the contract
that became a nullity upon Seller’s refusal to accept. Addendum No. 4 was
sufficient to cancel the REPC. We therefore remand to the district court for
entry of summary judgment and an award of attorney fees in favor of Buyers.
Tf28 Justice Wilkins, Justice Parrish, and Justice Nehring concur in
Chief Justice Durham’s opinion.
^[29 Having disqualified himself, Associate Chief Justice Durrant
does not participate herein.
App 25

Supreme Court of Utah
450 South State Street
P.O. Box 140210
Salt Lake City, Utah 84114-2010
Appellate Clerks’ Office
Telephone (801) 578-3900
Fax (801) 578-3999
December 11, 2008
WALTER T. KEANE
ATTORNEY AT LAW
2150 S 1300 ESTE 500
SALT LAKE CITY UT 84106
Re^ Glenn v. Reese

Appellate Case No. 20080861
Trial Court No. 080400977

Dear Mr. KEANE:

Enclosed is a copy of the order granting the interlocutory appeal entered by the
Utah Supreme Court on December 11, 2008, in the above referenced case.

This order takes the place of a notice of appeal. A docketing statement is not
required. However, in accordance with Rule 11, of the Utah Rules of Appellate
Procedure you must make arrangements for any necessary transcripts or inform us
that no transcripts are required.If transcripts are requested, payment
arrangements must be made. See Utah Rules of Appellate Procedure 11. This
should be done timely. Once this process is complete, the FOURTH DISTRICT,
PROVO DEPT Court will be notified that the record index should be prepared and
sent to the Utah Supreme Court. The briefing schedule will be set upon receipt of
the record index on appeal.

App 26

As of May 15, 2008, pursuant to Utah Supreme Court Standing Order No. 8, any
party filing a brief on the merits in the Utah Supreme Court or the Utah Court of
Appeals is required to submit a courtesy copy of the brief on compact disk in
searchable PDF format in addition to complying with the filing and service
requirements stated in the Utah Rules of Appellate Procedure. Any party who lacks
the technological capability to comply with this requirement, must file a motion to
be excused from compliance at the time that party files its brief on the merits.

Enclosed is a copy of Standing Order No. 8. If you have any questions, please
contact me at 578-3904.

Sincerely,
/s/
Merilyn Hammond
Deputy Clerk
Enc.
cc:

FOURTH DISTRICT, PROVO DEPT ALAIN C BALMANNO

App 27

FILED
UTAH APPELLATE COURTS

DEC 1 1 2008
IN THE UTAH SUPREME COURT

Endre' Glenn and
Margret Glenn,
Plaintiffs and Petitioners
v. Case No. 20080861-SC
Robin Reese and Judith Reese,
Defendants and Respondents.

ORDER

This matter is before the court upon a Petition for Permission to Appeal an
Interlocutory Order, filed on October 20, 2008.
IT IS HEREBY ORDERED pursuant to Rule 5 of the Utah Rules of Appellate
Procedure, the Petition for Permission to Appeal an Interlocutory Order is granted.

December 11. 2008
Date

For The Court:
/s/
Christine M. Durham
Chief Justice

App 28

Walter T. Keane #10333
WALTER. KEANE,P.C.
2150 South 1300 East, Suite 500
Salt Lake City Utah 84106
Phone: 801 990-4422
Fax: 801-606-75331
Email: Walter@WaJterTKeane.com
Attorney for Plaintiffs

FILED
OCT 02, 2008
4th DISTRICT
UTAH COUNTY

IN THE FOURTH JUDICIAL DISTRICT COURT IN AND FOR
UTAH COUNTY - PROVO COURTHOUS, STATE OF UTAH
ENDRE' GLENN and
MARGARET GLENN
vs.
ROBIN REESE and JUDITH
REESE,
Defendants.

[PROPOSED] ORDER
Case No: 080400977
Judge" Samuel McVey

This matter coming to be heard on cross motions for summary judgment, all parties
present by and through their counsel, the Court being fully informed and after
considering oral argument, motions and memoranda IT IS HEREBY ORDERED:
1. That the both the plaintiffs and the defendant motions for summary judgment are
denied.
DATED this _2 day of October 2008

BY THE COURT
/s/
HONORABLE SAMUEL MCVEY

App 29

IN THE UNITED STATES DISTRICT COURT FOR THE
DISTRICT OF UTAH, CENTRAL DIVISION
ENDRE GLENN,
Plaintiff,
v.
BRENNAN H. MOSS
and PIA ANDERSON
DORIUS REYNARD &
MOSS, LLC,

MEMORANDUM DECISION
AND ORDER DENYING
PLAINTIFF’S MOTIONS
FOR NEW TRIAL OR
RELIEF FROM JUDGMENT
Case No. 2U5-cv-00165-DN
District Judge David
Nuffer

Defendants.

This case was dismissed on summary judgment.7 A previous motion by
plaintiff Endre Glenn (“Glenn”) to alter judgment or grant relief from judgment was
denied.8 Glenn now has filed two additional post-judgment motions for relief from
summary judgment (the “Motions”),9 which do not improve upon the positions set
forth in the prior post-judgment motion. These Motions can be denied without
opposition.
Glenn contends that he has discovered new evidence that was not available to
him until November 1, 2017, after summary judgment was entered.10 The evidence
at issue consists of declarations from a state court action in which Glenn was the

7 Memorandum Decision and Order Accepting Report and Recommendations (“Summary Judgment
Order”), docket no. 133, filed October 19, 2017
8 Memorandum Decision and Order Denying Plaintiffs Motion to Alter Judgment or Grant Relief
from Judgment (“Prior Post-Judgment Order”), docket no. 138, filed November 29, 2017.
9 Motion Reopen Case Under FRCP 59(a) Motion New Trial or Grant Relief from Judgment Under
FRCP 60(b)(2), 60(b)(3), docket no. 139, filed December 21, 2017 (“Motion No. 139”); Plaintiffs
Motion for New Trial Under FRCP 59(a) and/or Grant Relief from Judgment Under FRCP 60(b)(2),
60(b)(3), docket no. 141, filed December 21, 2017 (“Motion No. 141”).
10 Motion No. 139 at 2.

App 30

plaintiff.11 The declarations were considered and rejected on Glenn’s prior motion
for relief from judgment.12 The declarations, which Glenn attests he obtained from
his former lawyer,13 were previously discoverable with diligence. Moreover, the
declarations are not material or likely to produce a different result. Glenn argues
that the declarations show fraud on the part of the buyer in the underlying failed
real estate transaction, which is not a claim properly raised in this legal malpractice
action.14 Therefore, the declarations do not compel a new trial under Rule 59(a).15
Glenn alternatively requests relief from judgment under Rules 60(b)(2) and
60(b)(3). The Motions do not satisfy Rule 60(b) under either subsection. As
explained above, Glenn lacks newly discovered evidence that, with reasonable
diligence, could not have been discovered.16 And although Glenn continues to argue
that the buyer in his home sale acted fraudulently, he has not shown fraud,
misrepresentation, or misconduct by the defendants to justify relief from
judgment.17
Glenn once again argues that he has been denied a jury trial.18 Glenn’s
claims were dismissed on summary judgment because no genuine dispute of
material fact required a trial.19 It is well established that “[t]he Seventh
Amendment is not violated by proper entry of summary judgment because such a
ruling means that no triable issue exists to be submitted to a jury.”20
The Motions do not present a basis for disturbing the summary judgment
dismissing Glenn’s case. Accordingly, the Motions are denied.

11 Id.; Motion No. 141 at 2
12 Prior Post-Judgment Order at 1—2
13 Declaration of Glenn TJ10, docket no. 140, filed December 21, 2017.
14 Summary Judgment Order at 7 (“Glenn’s allegation of fraud against the Buyer at this late date is
neither relevant to the actual claims nor supported by the facts.”)
13 Fed. R. Civ. P. 59(a); Joseph v. Terminix Int’l Co., 17 F.3d 1282, 1285 (10th Cir. 1994) (identifying
the elements required for a new trial based on new evidence).
16 Fed. R. Civ. P. 60(b)(2).
17 Fed. R. Civ. P. 60(b)(3) (requiring fraud “by an opposing party”).

18 Motion No. 141 at 7—8
is Fed. R. Civ. P. 56(a).
20 Shannon v. Graves, 257 F.3d 1164, 1167 (10th Cir. 2001) (citing Fidelity & Deposit Co. v. United
States, 187

App 31

ORDER

Having reviewed and considered the Motions, and for good cause appearing,
IT IS HEREBY ORDERED that the Motions21 are DENIED. The case
remains dismissed and closed.
Dated January 29, 2018.
BY THE COURT:
/s/
David Nuffer
United States District Judge

21 Docket no. 139, docket no. 141.

App 32

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH,
CENTRAL DIVISION
ENDRE GLENN,

MEMORANDUM DECISION
AND ORDER:
Plaintiff,
• ACCEPTING [119] REPORT
AND RECOMMENDATION;
v.
• GRANTING [125]
DEFENDANTS’ MOTION TO
BRENNAN H. MOSS and PIA
STRIKE PLAINTIFF’S REPLY
ANDERSON DORIUS REYNARD &
TO RESPONSE TO REPORT
MOSS, LLC,
AND RECOMMENDATION;
AND
Defendants.
• DENYING [131] PLAINTIFF’S
MOTION FOR LEAVE TO
FILE SUR-REPLY
Case No. 2:15-cv-00165-DN-BCW
District Judge David Nuffer
Magistrate Judge Brooke C.
Wells

Pro se plaintiff Endre Glenn (“Glenn”) filed this action against the law
firm of Pia Anderson Dorius Reynard & Moss, LLC, and attorney Brennan
H. Moss (together, “Pia Anderson”). Pia Anderson represented Glenn in a
Utah State court action against Glenn’s former real estate agent and
brokerage.1 The Complaint alleges that Pia Anderson mishandled litigation
against a real estate agent and brokerage for which Glenn hired the firm.2
Glenn asserts claims for professional negligence (legal malpractice), breach

Complaint, docket no. 1, filed March 16, 2015.
2 Id

App 33

of fiduciary duty, breach of contract, and breach of the implied covenant of
good faith and fair dealing.3
The case was referred to United States Magistrate Judge Brooke4
Wells to handle all matters, including a report and recommendation on
dispositive matters.5 The Magistrate Judge issued a Report and
Recommendation (the “R&R”)6 on March 1, 2017 recommending action on
four separate but related motions. The R&R recommends!
•

GRANTING the Motion for Summary Judgment7 filed by Pia Anderson
(the “Summary Judgment Motion”)!
STRIKING the Cross Motion for Summary Judgment8 filed by
Glenn (the “Cross Motion”);
GRANTING IN PART and DENYING IN PART Defendants’ Motion to
Strike Plaintiffs Untimely Cross Motion for Summary Judgment9 by
striking the Cross Motion but considering the Cross Motion as an
opposition to the Summary Judgment Motion! and

•

DENYING Defendants’ Motion to Extend Deadline to File Memorandum
in Opposition to Plaintiffs Cross Motion for Summary Judgment because
no response to the stricken Cross Motion is required. 10

The parties were notified of their right to file objections to the R&R within
14 days of service pursuant to 28 U.S.C. § 636(b) and Federal Rules of Civil
Procedure 72(b)(2).11 Glenn filed an objection to the R&R (the “Objection to
R&R”), arguing that his professional negligence and related claims should
not be dismissed because! (l) the Magistrate Judge disregarded facts
regarding the prior litigation! (2) Glenn’s claim in the prior litigation was
3 Id

4 Order Referring Case, docket no. 12, entered July 7, 2017.
s 28 U.S.C. § 636(b)(1)(B).
6 Docket no. 119, filed March 1, 2017
7 Docket no. 90, filed October 14, 2016.
8 Docket no. 95, filed October 28, 2016.
9 Docket no. 100, filed November 18, 2016.
10 Docket no. 101, filed November 18, 2016.
11 R&R at 12, docket no. 119.

App 34

not speculative as the Magistrate Judge determined; and (3) if the prior
litigation was unwinnable, then Pia Anderson had a duty to advise Glenn
not to pursue the litigation.12 Pia Anderson responded to the Objection to
the R&R.13 No further briefing on the R&R is provided under to 28 U. S.C.
§ 636(b). Glenn nevertheless filed a reply to Pia Anderson’s response to the
Objection to the R&R,14 which Pia Anderson moved to strike.15 Glenn
responded with a motion for leave to file a sur-reply,16 which asserted that
Glenn’s arguments in reply should be accepted.
The district court must make a de novo determination of those
portions of a magistrate judge’s report and recommendation to which
objections are made17. The district court “may accept, reject, or modify, in
whole or in part, the findings or recommendations made by the magistrate
judge.”18 De novo review has been completed of those portions of the
report, proposed findings, and recommendations to which objection was
made, including the record that was before the Magistrate Judge and the
reasoning set forth in the R&R.19 On this basis, Glenn’s objections are
overruled, and the R&R is ACCEPTED.
Because the arguments in Glenn’s reply in support of his Objection to
the R&R have been considered and rejected, Pia Anderson’s motion to
strike the reply20 is DENIED. Because no further briefing on the R&R is

12 Objection to R&R, docket no. 120, filed March 14, 2017
13 Response to Objection to R&R, docket no 121, filed March 28, 2017
14 Reply re Objection to R&R, docket no. 123, filed April 10, 2017.
15 Motion to Strike Reply Brief or, in the Alternative, Motion for Leave to File Sur-reply, docket no.
125, filed April 20, 2017.
16 Motion for Leave to File Sur-Reply, docket no. 131, filed May 25, 2017 (also filed as a sur-reply
brief, docket no. 130, filed May 25, 2017).
” 28 U.S.C. § 636(b)(1)(C).
13 Id
13 28 U.S.C. § 636(b).
20 Docket no. 125

App 35

required or permitted, Glenn’s motion for leave to file a sur- reply in
support of his Objection to the R&R21 is DENIED.
BACKGROUND22

In 2007 Glenn owned a home in Murray, Utah, which he sought to sell
because he was relocating to the State of Washington.23 Glenn engaged real estate
agent Donna Kane and her brokerage, NRT LLC d/b/a Coldwell Banker Residential
Brokerage (collectively, the “Agent”), to list the home. Glenn received an offer on
December 18, 2007 from potential buyers Robin and Judith Reese (collectively, the
“Buyers”) to purchase the home.24 Robin Reese was at that time a judge in Third
District Court, Salt Lake County, State of Utah.25 The Buyers’ offer came in the
form of a Real Estate Purchase Contract (the “Purchase Contract”) with a purchase
price of $540,000.26 The Purchase Contract was derived from the form Real Estate
Purchase Contract then used by Utah Realtors as the industry standard (the
“Standard REPC”).27 The Purchase Contract provides in Section 8(e)- “Buyer’s
obligation to purchase under this Contract... IS conditioned upon Buyer’s approval
of the following tests and evaluations of the Property: Any other deemed necessary
by buyers.”28
After obtaining an independent appraisal showing that the property was
valued at less than the offered purchase price, the Buyers relied on Section 8(e).29
The Buyers counter-offered at the lower price of $460,000 and, when that was not

21 Docket no. 131
22 Material facts are drawn from the undisputed facts in the Summary Judgment Motion and Cross
Motion, as well as the documents attached thereto
23 Summary Judgment Motion | 1,‘ Cross Motion p. 1.
24 Purchase Contract, Moss Declaration in Support of Summary Judgment Motion, Ex. 2, docket no.
91-2, filed October 14, 2016.
25 Summary Judgment Motion p. 2! Cross Motion pp. 2-3.
23 Id.
v Id.
28 Id. § 8(e).
29 Summary Judgment Motion U[ 5-7; Cross Motion p. 2.

App 36

accepted, refused to purchase the home.30 Glenn denied that Section 8(e) permitted
the counter-offer or termination of the Purchase Contract. With market conditions
worsening in the face of a well-documented recession impacting the real estate
market in 2007 and the following years, Glenn could not sell the home on terms
acceptable to him for years.31
Glenn sought retribution for the failed sale. Glenn first sued the Buyers (the
“Buyer Action”) in Utah State court. Glenn asserted claims for breach of contract,
breach of the covenant of good faith and fair dealing, and specific performance
(fraud was not alleged). After losing in the trial court, Glenn appealed. On appeal,
the Supreme Court of Utah held in favor of the Buyers, finding that the Purchase
Contract was unambiguous and enforceable as a matter of law, and that the Buyers
were able to cancel the Purchase Contract under Section 8(e) based on an
unfavorable appraisal.32
Glenn next sued the Agent (the “Agent Action”) in federal court. Pia
Anderson represented Glenn in the action. Glenn argued that the Agent breached
contractual and fiduciary duties by failing to advise Glenn of the effect of Section
8(e).33 On summary judgment Judge Waddoups dismissed Glenn’s claims for breach
of contract, breach of the implied covenant of good faith and fair dealing, and breach
of fiduciary duty.34
Judge Waddoups concluded that the complaint did not state a cause of action
and there was no injury alleged that would not be pure speculation.35 Specifically,
“[i]t would be pure speculation to argue as to what [the Buyers’] reaction or their
response would have been or what the potential buyer’s response would have been if
[the Agent] had, in fact, done everything that [Glenn] alleges she should have
30 Id.
31 The home sold in April 2013. Objection to R&R at 6.
32 Glenn v. Reese, 225 P.3d 185, 190 (Utah 2009).
33 Complaint in Agent Action, Moss Declaration in Support of Summary Judgment Motion, Ex. 1
(“Agent Action Complaint”), docket no. 91-1, filed October 14, 2016.
34 Hearing Transcript from Proceedings Before the Honorable Clark Waddoups, Case No. 2:l0-cv00726-CW, Moss Declaration in Support of Summary Judgment Motion, Ex. 5 (“Waddoups
Transcript”), docket no. 91-5, filed October 14, 2016.
33 Id. at 26:18-22.

App 37

done.”36 Judge Waddoups further held that the Agent “was not engaged as legal
counsel and was under no duty to give [Glenn] legal advice as to the responsibilities
and to the meaning of the contract.”37
Glenn then sued Pia Anderson in this case (the “Malpractice Action”). Pia
Anderson moved for summary judgment on Glenn’s claims of professional
negligence, breach of fiduciary duty, breach of contract, and breach of the Covenant
of good faith and fair dealing.38 The Summary Judgment Motion spawned a
number of related briefs and motions. The Magistrate Judge reviewed the briefing
on the motions and recommended granting the Summary Judgment Motion,
treating the Cross Motion as an opposition to the Summary Judgment Motion, and
denying Pia Anderson’s motion for leave to file further briefing on the Cross
Motion.39
DISCUSSION

Glenn’s Motion for Summary Judgment
Glenn has objected to the Magistrate’s analysis of the Buyer Action, the
Agent Action, and the Malpractice Action (this case). Glenn struggled to sell his
Murray, Utah home during the years 2007 to 2013, which is an unfortunate but
common experience for that time period. Glenn has failed to show that the blame—
or the liability—lies with the Buyer who canceled the sale, the Agent who handled
the listing, or Pia Anderson as his litigation counsel in the Agent Action. The Utah
Supreme Court’s observation about accidents holds equally true for economic losses
like Glenn’s^
Not every [loss] that occurs gives rise to a cause of action upon which the
party injured may recover damages from someone. Thousands of [losses]

36 Id. at 26:25-27:4.
37 Id. at 27:16-19.
38 Summary Judgment Motion
39 R&R, docket no. 119

App 38

occur every day for which no one is liable in damages, and often no one is to
blame, not even the ones who are injured.40
Pia Anderson is no more responsible for Glenn’s loss than the Buyers or the
Agent. The Objection to the R&R is overruled on each basis Glenn has asserted.

The Buyer Action (Utah State Court)
Glenn objects to the Magistrate Judge’s evaluation of the Buyer Action.
Glenn argues that the Magistrate Judge erred by “[disregarding the facts and
fraudulent misrepresentation of the Buyer Judge Robin Reese.” Glenn’s allegation
of fraud against the Buyer at this late date is neither relevant to the actual claims
nor supported by the facts.
The R&R recommends summary judgment against Glenn on his claims
against Pia Anderson for their representation of Glenn in the Agent Action. Glenn
used different attorneys in the Buyer Action. 41 Whether the Buyers made a
fraudulent misrepresentation did not bear directly on Glenn’s claims against the
Agent in the Agent Action. The Agent Action concerned whether the Agent breached
a duty to warn Glenn about Section 8(e) of the Purchase Contract and its potential
effects.42 The Agent would not have been liable for the Buyers’ fraudulent
misrepresentation, if any. Glenn lost the Buyer Action because Section 8(e) of the
Purchase Contract unambiguously permitted the Buyers to cancel the Purchase
Contract based on independently acquired appraisal information, which they did.43
Fraud by the Buyers is a new allegation that was not even asserted in the Buyer
Action.44 The Magistrate Judge did not “disregard” allegations of fraudulent
misrepresentation against the Buyers. This basis for objecting to the R&R is
rejected.

40 Martin v. Safeway Stores Inc., 565 P.2d 1139, 1142 (Utah 1977).
41 Objection to R&R pp. 2—3.
42 Agent Action Complaint.
43 Glenn v. Reese, 225 P.3d 185, 190 (Utah 2009).
44 Id.

App 39

Nor has Glenn offered more than unsupported assumptions for his accusation
of fraud against the Buyers.45 Glenn claims that the Buyer acted on nonpublic
information obtained in his judicial capacity by relying on Section 8(e) of the
Purchase Contract.46 There is no evidence that the Buyers, including Judge Reese,
had nonpublic information about the Standard REPC generally or the parties’ own
Purchase Contract specifically. To the contrary, the Purchase Contract and its
terms were express, apparent, and available to all parties. If the Buyers benefitted
from Judge Reese as a legally trained person reviewing and understanding the
Purchase Contract, that does not create culpability or liability.
Glenn had an equal opportunity to review the Purchase Contract and seek
legal advice.

The Agent Action (US. District Court)
Glenn objects to the Magistrate Judge’s finding in the R&R that the Agent Action
failed because the case was speculative. The objection states^ “Plaintiffs argument
is not speculative but based on fraud.”
Glenn indeed lost the Agent Action both because he could not show that the
Agent breached a duty to advise Glenn on Section 8(e)h47 and because Glenn’s
theory of causation was speculative.48 Glenn could only speculate as to how he and
the Buyers—or any other buyer—would have negotiated, agreed upon, and
performed on a sale of the home differently if Glenn had been fully advised of
Section 8(e) and its effect.49 Judge Waddoups found Glenn’s claims facially
deficient.50 The Magistrate Judge correctly determined, based on Judge Waddoups’

45 Objection to the R&R pp. 1, 5.
46 Id.
47 Waddoups Transcript at 27:16—19
48 Id. at 26:20-22
49 Id. at 26:24-27:4.
so Id. at 26:18-22

App 40

ruling on the Agent Action, that Pia Anderson could not have salvaged Glenn’s
claims through further discovery or expert testimony.51
Glenn has argued in the Cross Motion,52 and in his multiple briefs in
response to the R&R, that the Standard REPC was unambiguous and
unenforceable. Glenn cites to an article published in the Utah Division of Real
Estate News, July 2008.53 In the article, the Utah Division of Real Estate (the
“Division”) offers an explanation for upcoming revisions to the Standard REPC.54
After acknowledging that the Standard REPC was used to effectuate “numerous
successful real estate transactions,” the Division explains: “Some licensees have had
to struggle with certain provisions that are contained in the REPC that were either
ambiguous, required clarification or otherwise had an undesired or unintended
consequence as a result of language that was either currently included or should
have been included in the existing state approved REPC.”
Glenn draws from this article the conclusion that: (l) the Buyers were privy
to the deficiencies in the Standard REPC and fraudulently exploited that
information; (2) the Agent should have advised Glenn of the deficiencies in the
REPC; and (3) Pia Anderson should have successfully pursued this basis for a claim
against the Agent. Glenn’s assertion that Section 8(e) created a loophole for the
Buyers is unfounded.55 The Division in no way states that the Standard REPC was
unenforceable—a result that would be catastrophic for the presumably thousands of
homes sold using the form. The Division’s statements advocate revisions to the
Standard REPC based on complications that some agents, buyers, and sellers
experienced with the form under certain circumstances. The article from the
Division does not show that the Standard REPC was unenforceable or that the
Agent breached a duty to Glenn by using the form.

51 R&R at 11
52 Cross Motion p. 3.
53 Objection to R&R, Ex. A, docket no. 120-1
64 Id.
55 Objection to R&R p. 3.

App 41

But even if the Division had taken the position that the Standard REPC was
deficient, such an opinion would have no bearing on the enforcement of Glenn’s
Purchase Contract. The Standard REPC was a contract form employed by real
estate agents in Utah. The form became a contract, and no longer a form, when
Glenn and the Buyers personalized, completed, and executed the Purchase
Contract. The Purchase Contract’s terms are self-contained. The Utah courts
concluded that Glenn’s Purchase Contract was unambiguous and enforceable.56

The Malpractice Action (This Case)
Glenn argues in his Objection to the R&R that “the speculative nature [of the
Agent Action] makes the case unwinnablet;] therefore [Pia Anderson] should have
appropriately advised [Glenn].”57
In other words, if Pia Anderson knew “the case was not viable and
unwinnable then he should have advised his client not to pursue the case, rather
than incur $20,000 of legal fees.”58 This is a new argument in response to the R&R
rather than an objection to the Magistrate Judge’s analysis and recommendation.
The argument is not a proper objection and is rejected.59
Glenn’s position is substantively flawed as well. Judge Waddoups and the
Magistrate Judge correctly found that the Agent Action fails as a matter of law
based on Glenn’s inability to prove damages.60 There were several unanswered
questions about Glenn’s case—i.e., what would have happened had the Agent
handled things differently—but those questions were not answered because they
were unanswerable and speculative, not because of how Pia Anderson litigated the
case.61

56 Glenn v. Reese, 225 P.3d 185, 190 (Utah 2009).
57 Objection to R&R p. 1.
58 Id. p. 9.
59 28 U.S.C. § 636(b)(1)(C); Fed. R. Civ. P. 72(b)(2) (providing that “a party may serve and file specific
written objections to the proposed findings and recommendations” but not new arguments in support
of the decided motion).
60 R&R at 11.
61 Id.

App 42

The Magistrate Judge’s recommendation to grant Pia Anderson’s Summary
Judgment Motion and dismiss Glenn’s claims62 is accepted.

Glenn’s Cross Motion for Summary Judgment
Glenn did not specifically object to the Magistrate’s R&R with respect to the
Cross Motion, Pia Anderson’s motion to strike the Cross Motion, or Pia Anderson’s
motion to extend the deadline for responding to the Cross Motion.63 The R&R is
accepted with respect to these motions. Pia Anderson’s Motion to Strike the Cross
Motion64 will be granted in part and denied in part. The Cross Motion is stricken
but treated as an opposition to the Summary Judgment Motion. Pia Anderson’s
motion to extend the deadline for responding to the Cross Motion65 will be denied
because no response to the stricken Cross Motion is required.66

Motions in Response to Briefing on R&R

In responding to the R&R, the parties filed two additional motions.
Glenn submitted a reply memorandum in further support of his Objection to
the R&R.67 Pia Anderson moved to strike this reply brief because no reply is
permitted on an objection to a report and recommendation and because the reply
raises new issues.68 The motion is granted. The argument and positions raised in
the reply brief have been considered and rejected for the reasons stated herein.

62 R&R at 12.
63 R&R at 11-12.
64 Docket no. 100
65 Docket no. 101
66 Docket no. 101, filed November 18, 2016.
67 Docket no. 123, filed April 10, 2017.
68 Motion to Strike Reply Brief, docket no. 125, filed April 20, 2017

App 43

Nevertheless, the reply brief is not properly before the court and should be
stricken.69
Glenn also filed a sur-reply further arguing his position on the R&R70
together with a motion for leave to file the sur-reply.71 The motion is denied. The
argument and positions raised in the sur-reply have been considered and rejected
for the reasons stated herein. Nevertheless, Glenn has had ample opportunity to
present his arguments, and the sur-reply will be stricken.

ORDER

IT IS HEREBY ORDERED that the Report and Recommendation72 is
ACCEPTED. Pia Anderson’s Motion for Summary Judgment73 is GRANTED. Pia
Anderson’s Motion to Strike Glenn’s Cross Motion for Summary Judgment74 is
GRANTED IN PART and DENIED IN PART. Glenn’s Cross Motion for Summary
Judgment75 is STRICKEN and treated as an opposition to Pia Anderson’s Motion
for Summary Judgment. Pia Anderson’s Motion to Extend Deadline to File
Memorandum in Opposition to Plaintiffs Cross Motion for Summary Judgment76 is
DENIED because no response to the stricken cross motion is required. This case is
DISMISSED with prejudice.
IT IS FURTHER ORDERED that Pia Anderson’s motion to strike Glenn’s
reply in support of Glenn’s objections to the R&R is GRANTED. The reply has been
considered and rejected, but it is not properly before the court.

69 28 U.S.C. § 636(b)(1)(C); Fed. R. Civ. P. 72(b)(2) (limiting briefing on a report and recommendation
to one objection and one response)
70 Docket no. 130, filed May 25, 2017.
71 Docket no. 131, filed May 25, 2017.
72 Docket no. 119.
73 Docket no. 90.
74 Docket no. 100.
75 Docket no. 95
76 Docket no. 101

App 44

IT IS FURTHER ORDERED that Glenn’s motion for leave to file a sur-reply
in support of his objections to the R&R is DENIED. No further briefing on the R&R
is required or permitted. .
The Clerk is directed to close the case. Any remaining motions not addressed
by this Order, including Pia Anderson’s Motion in Limine,77 are rendered moot by
the dismissal of Glenn’s claims.
Signed October 19, 2017.
BY THE COURT
/s/
David Nuffer
United States District Judge

77 Docket no. 113, filed January 27, 2017

App 45

TABLE OF CONTENTS

U.S. District Court Utah, Central Division Memorandum Decision & Order Denying
[135] Plaintiffs Motion To Alter Judgment Or Grant Relief From Judgment
November 29, 2017

1

U.S. District Court Utah, Central Division Report & Recommendation On CrossMotions For Summary Judgment March 1, 2017..........................................................

3

Plaintiffs Oppositon To Magistrate Judge’s Report And Recommendation March 14,
2017

13

U.S. District Court Utah, Central Division ORDER December 21, 2011

29

i

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH,
CENTRAL DIVISION
MEMORANDUM DECISION AND
ORDER DENYING [135]
PLAINTIFFS MOTION TO ALTER
JUDGMENT OR GRANT RELIEF
FROM JUDGMENT

ENDRE GLENN,
Plaintiff,
v.
BRENNAN H. MOSS and PIA
ANDERSON DORIUS REYNARD &
MOSS, LLC,

Case No. 2:i5-cv-00165-DN
District Judge David Nuffer

Defendants.

This case was dismissed on summary judgment.1- Pro se plaintiff Endre
Glenn (“Glenn”) has filed a motion seeking to reopen the case under Rules 59(a) and
60(b)(3) of the Federal Rules of Civil Procedure (the “Motion”).2 Glenn argues that
he was denied the right to a jury trial and that new evidence compels relief from
judgment. The Motion can be denied without opposition. Glenn’s claims were
dismissed on summary judgment because no genuine dispute of material fact
required a trial.3 It is well established that “[t]he Seventh Amendment is not
violated by proper entry of summary judgment because such a ruling means that no
triable issue exists to be submitted to a jury.”4
Even if the case had gone to trial, the purported new evidence does not

1 Memorandum Decision and Order Accepting Report and Recommendations (“Summary Judgment
Order”), docket no. 133. filed October 19, 2017.
2 Motion to Alter Judgment or Grant Relief from Judgment (“Motion”), docket no. 135. filed
November 21, 2017.
3 Fed. R. Civ. P. 56(a).
4 Shannon v. Graves, 257 F.3d 1164, 1167 (10th Cir. 2001) (citing Fidelity & Deposit Co. v. United
States, 187 U.S. 315, 319-20 (1902)).

SA 1

compel a new trial or hearing. The evidence at issue consists of declarations from a
state court action in which Glenn was the plaintiff.5 Glenn has not satisfied the
standard for seeking a new trial under Rule 59.6 The declarations were previously
discoverable with diligence.7 And the declarations are not material or likely to
produce a different result.8 Glenn argues that the declarations show fraud on the
part of the buyer in a failed real estate transaction, which is not a claim properly
raised in this legal malpractice action.9
The Motion alternatively seeks to set aside judgment under Rule 60(b).10
Glenn has not shown grounds for relief from the judgment in this case. He lacks
“newly discovered evidence that, with reasonable diligence, could not have been
discovered.”11 And although Glenn continues to argue that the buyer in his home
sale acted fraudulently, he has not shown fraud, misrepresentation, or
misconduct by the defendants to justify relief from judgment12

ORDER
Having reviewed and considered the Motion, and for good cause appearing, IT IS
HEREBY ORDERED that the Motion13is DENIED.
Dated November 29, 2017.
BY THE COURT:
/s/

United States District Judge
David Nuffer

5 Motion, Exs. A, B, C, G, and H.
6 Fed. R. Civ. P. 59(a); Joseph v. Terminix Int’l Co., 17 F.3d 1282, 1285 (10th Cir. 1994) (identifying
the elements required for a new trial based on new evidence).
7 Id.
s Id.
9 Summary Judgment Order at 7 (“Glenn’s allegation of fraud against the Buyer at this late date is
neither relevant to the actual claims nor supported by the facts.”).
10 Fed. R. Civ. P. 60(b)
11 Id.
12 Id.
13 Docket no. 135

SA 2

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF UTAH,
CENTRAL DIVISION
ENDRE GLENN,
REPORT AND RECOMMENDATION
ON CROSS-MOTIONS FOR SUMMARY
JUDGMENT

Plaintiff,
v.
BRENNAN H. MOSS and PIA
ANDERSON DORIUS REYNARD
& MOSS, LLC,

Case No. 2U5cvl65-DN-BCW
District Judge David Nuffer Magistrate
Judge Brooke Wells

Defendant.

Pro Se Plaintiff Endre Glenn (“Plaintiff’) filed the Complaint in this case on
March 16, 2015, against attorney Brennan H. Moss and the law firm of Pia
Anderson Dorius Reynard & Moss (“Defendants”).1 District Judge Dee Benson
deferred this case to Magistrate Judge Brooke C. Wells pursuant to 28 U.S.C. §
636(b)(1)(B).3 Before the Court are Defendants’ Motion for Summary Judgment4 and
Declaration of Brennan H. Moss in Support of Defendants’ Motion for Summary
Judgment,5 Defendants’ Motion to Strike Plaintiffs Untimely Cross Motion for
Summary Judgment,6 Defendants’ Motion to Extend Deadline to file Memorandum
in Opposition to Plaintiffs Cross Motion for Summary Judgment,7 and Plaintiffs

1 Docket no. 1 and Docket no. 5.
2 District Judge Dee Benson recused from this case on November 16, 2016, and the
case was reassigned to District Judge David Nuffer. Docket no. 97.
3 Docket no. 12
4 Docket no.
5 Docket no.
6 Docket no.
7 Docket no.

90.
91
100
101

SA 3

Cross Motion for Summary Judgment.8
A. DEFENDANTS’ MOTION TO STRIKE PLAINTIFF’S UNTIMELY CROSS
MOTION FOR SUMMARY JUDGMENT
Defendants’ request the Court to strike Plaintiffs Cross Motion for Summary
Judgment (“Cross MSJ”) based on the fact that it was filed approximately two
weeks after the dispositive motion deadline.9 In response, Plaintiff argues that his
Cross MSJ is filed in opposition to Defendants’ Motion for Summary Judgment, as
well as seeking summary judgment in his favor.10
In their motion to strike, Defendants note that Plaintiff has continually failed to
meet the deadlines of this Court. Not only has Plaintiff failed to serve his initial
disclosures on Defendants,11 but Plaintiff also failed to timely respond to discovery
requests, failed to serve his discovery requests on Defendants by the discovery
deadline, failed to file expert reports by the deadline, and now has failed to meet the
dispositive motion deadline.12 In the Court’s May 17, 2016 Order, the Court
cautioned both parties to follow the rules of procedure that govern all litigants and
urged the parties to timely comply with the Court’s Order and the Federal Rules of
Civil Procedure during this litigation.13 Plaintiff has failed to adhere to this Court’s
Order and did not seek an extension of time prior to the expiration of deadline for
filing dispositive motions.
Since the deadline has passed and Plaintiff failed to seek leave of the Court
to file a late motion for summary judgment, the Court’s hands are tied with respect
to extending the time for Plaintiff to file a dispositive motion.14 Accordingly, the
Court will not consider Plaintiffs Cross MSJ as a motion for summary judgment.

8 Docket no. 95
9 See Docket no 100.
10 Docket no. 102
11 The Court notes that Defendants, who are represented by counsel, also missed the first deadline to
exchange initial disclosures. See Docket no. 58, p. 4-5.

12 See Docket no. 100, p. 6.
13 See Docket no. 66.
14 See Federal Rules of Civil Procedure 6(b) (the Court may, for good cause, extend a deadline with or
without motion prior to the expiration of a deadline, but may only extend a deadline once it expires
upon a motion and a finding of excusable neglect).

SA 4

That said, it is clear from Plaintiffs filing that he was unfamiliar or confused
about how to properly respond to a motion for summary judgment. In opposing
Defendants’ motion to strike, Plaintiff states that his Cross MSJ was filed in part
as an opposition to Defendants’ motion for summary judgment.15 “[l]f a litigant files
papers in a fashion that is technically at variance with the letter of a procedural
rule, a court may nonetheless find that the litigant has complied with the rule if
the litigant’s action is the functional equivalent of what the rule requires.”16
Plaintiff s Cross MSJ was timely filed as an opposition to Defendants’ motion
for summary judgment. Although its form and substance vary from the letter of the
procedural rule, this Court will consider Plaintiffs Cross MSJ the “functional
equivalent” to an opposition to Defendants’ motion for summary judgment.
Therefore, Defendants’ Motion to Strike Plaintiffs Cross MSJ is hereby
GRANTED-in- PART and DENIED-in-PART.
B. DEFENDANTS’ MOTION TO EXTEND DEADLINE TO FILE
MEMORANDUM IN OPPOSITION TO PLAINTIFFS CROSS SUMMARY
JUDGMENT
Based on this Court’s ruling above on Defendants’ Motion to Strike and its
review of the parties’ filings, the Court does not need additional briefing from the
parties in order to decide Defendants’ Motion for Summary Judgment. Accordingly,
Defendants’ Motion to Extend Deadline to File Memorandum in Opposition to
Plaintiffs Cross Summary Judgment17is DENIED.

C. DEFENDANTS’MOTION FOR SUMMARY JUDGMENT
This matter is before the Court on Defendants’ Motion for Summary
Judgment (“MSJ”).18 Per this Court’s decision above, Plaintiffs Cross Motion for
Summary Judgment will be construed as Plaintiffs opposition to Defendants’
15 Docket no. 102.
16 Torres v. Oakland Scavenger Co., 487 U.S. 312, 316-317 (1988).
17 Docket no. 101
18 Docket no. 90.

SA 5

MSJ.19 The Court finds that the pleadings filed by the parties are sufficient and no
hearing on the motion is necessary. For the reasons set for below, the Court
recommends that Defendants’ Motion for Summary Judgment be GRANTED.
I.

BACKGROUND20

Plaintiff was attempting to sell his property in 2007.

In September 2007,

Plaintiff entered into a Listing Agreement with real estate agent, Donna Kane, and
her brokerage, NRT LLC d/b/a Coldwell Banker Residential Brokerage (collectively
“Coldwell Banker”). On December 18, 2007, Plaintiff received an offer in the form of
a real estate purchase contract (“REPC”) from the prospective buyers (“Buyers”) for
a price of $540,000. In Section 8(e) of the REPC, the Buyers obligation to purchase
the property was conditioned upon their approval of any tests or evaluations
“deemed necessary by buyers” during their due diligence. Thereafter, the Buyers
sought to cancel or reduce the purchase price upon finding out the property
appraised for $80,000 less than the offer. Plaintiff did not accept Buyer’s offer to
reduce the price! thus, the Buyers cancelled the contract.
First, Plaintiff sued the Buyers for breach of the REPC, breach of good faith
and fair dealing, and specific performance (“Buyer Case”). After Plaintiff lost at the
trial level, Plaintiff appealed. On appeal, the Supreme Court of Utah found in favor
of Buyers finding that the REPC was unambiguous, and that the Buyers were able
to cancel the contract based on an unfavorable appraisal under Section 8(e) of the
REPC.21
Next, Plaintiff sued Coldwell Banker, for breach of contract, breach of the
implied covenant of good faith and fair dealing, and breach of fiduciary duty (“Agent
Case”). Defendants represented Plaintiff in the Agent Case, which is the subject of
the Malpractice Case now before the Court. The Listing Agreement required
19 Docket no. 95.
20 All facts included in this section were taken from the briefs and exhibits filed in conjunction with
Defendants’ Motion for Summary Judgment and Plaintiffs Cross Motion for Summary Judgment
(Opposition). See Docket no. 90, Docket no. 91, and Docket no. 95. The Court also takes judicial
notice of other Court decisions entered in Plaintiffs prior cases.
21 Glenn v. Reese, 225 P.3d 185, 190 (Utah 2009).

SA 6

Coldwell Banker to adhere to fiduciary duties of loyalty, full disclosure,
confidentiality, and reasonable care, and review all offers with Plaintiff. Plaintiff
claims that Coldwell Banker breached the Listing Agreement and their fiduciary
duty to Plaintiff by failing to properly review the REPC with Plaintiff and failing to
notify Plaintiff that Buyers could cancel the contract under Section 8(e)—which he
claims is a non-standard provision requiring mention and review with Plaintiff.
Plaintiff claims that if Coldwell Banker would have notified him about the effect of
Section 8(e) of the REPC, he could have addressed the potential problem with terms
in a counter offer. Further, he claims that once Coldwell Banker knew the Buyers
were countering and/or canceling based on an appraisal, Coldwell Banker should
have obtained the Buyer’s appraisal to allow Plaintiff to verify the counteroffer,
which he may have accepted after verification. According to Plaintiff, based on
Coldwell Banker’s failure to address Section 8(e) with him, he was damaged
because he incurred attorney’s fees in attempting to enforce the REPC against
Buyers, and he was unable to sell the property after the Buyer’s cancelled the sale.
The Agent Case came before the Honorable Judge Waddoups on Coldwell
Banker’s motion for summary judgment on December 21, 2011.22 At that hearing,
Judge Waddoups questioned how Plaintiff was damaged if Coldwell Banker was in
breach. Judge Waddoups found that there was no admissible evidence of damages,
and that damages were far too speculative to sustain a cause of action. Further,
Judge Waddoups found that Coldwell Banker did not have a duty to specifically
point out Section 8(e) of the REPC to Plaintiff or provide Plaintiff with any legal
advice as Plaintiff was charged with having read the REPC and had the
opportunity to counter at that time.23 Plaintiff appealed Judge Waddoups decision
to the Tenth Circuit.24 Before the Tenth Circuit, Plaintiff presented new
arguments raised for the first time on appeal. The Tenth Circuit held that it would
not consider the new arguments, and affirmed Judge Waddoups ruling.
22 Glenn v. Kane, et al., 2:i0cv726-CW, Docket no. 42.
23 It is noted that Plaintiff did counter the Buyer’s initial offer by increasing the earnest money, no
other changes were proposed. See Docket no. 91-2, p. 7.
24 Glenn v. Kane, 494 Fed.Appx. 916 (10th Cir. 2012)

SA 7

Now, Plaintiff is suing Defendants, his counsel in the Agent Case, for
professional negligence (a.k.a. malpractice), breach of fiduciary duty, breach of
contract, and breach of the implied covenant of good faith and fair dealing
(“Malpractice Case”). Plaintiffs claims are based on the fact that Defendants did not
conduct fact or expert discovery in the Agent Case, and claims that the outcome in
the Agent Case would be different if Defendants had done so. Defendants claim
that the outcome of the underlying case would not have been different based on
Judge Waddoups ruling that Plaintiff had failed to state a claim for which relief
could be granted, and his finding that Plaintiff was charged with knowledge of the
contractual terms and there was no special or additional duties charged to his real
estate agent.
II.

LEGAL STANDARDS

Summary judgment is proper if the moving party can demonstrate that there
is no genuine issue of material fact and it is entitled to judgment as a matter of
law.2525 “By its very terms, this standard provides that the mere existence of some
alleged factual dispute between the parties will not defeat an otherwise properly
supported motion for summary judgment; the requirement is that there be no
genuine issue of material fact.”26 In considering whether genuine issues of material
fact exist, the Court determines whether a reasonable jury could return a verdict for
the nonmoving party in the face of all the evidence presented.27 The Court is
required to construe all facts and reasonable inferences in the light most favorable
to the nonmoving party.28
III.

DISCUSSION

The main cause of action in this case, and the one that the remaining claims stem from, is
25 Fed. R. Civ. P. 56(c).
26 Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-248 (1986) (emphasis in original).
27 Anderson, 477 U.S. at 248 (1986); see also Scott v. Harris, 550 U.S. 372, 380 (2007)(“Where the
record taken as a whole could not lead a rational trier of fact to find for the non-moving party, there
is no genuine issue for trial.”)(internal citations and quotations omitted).
28 Matushita Elec. Indus. Co., Ltd. v. Zenith Radio Corp., 475 U.S. 574, 586 (1986); Wright v.
Southwestern Bell Tel. Co., 925 F.2d 1288, 1292 (10th Cir. 1991).

SA 8

the professional negligence claim (a.k.a. malpractice). “In a legal malpractice action, a plaintiff
must plead and prove (i) an attorney-client relationship; (ii) a duty of the attorney to the client
arising from the relationship; (iii) a breach of that duty; (iv) a causal connection between the
breach of duty and the resulting injury to the client; and (v) actual damages.”29 To prove
proximate cause, the plaintiff‘must show that absent the attorney’s negligence, the underlying
suit would have been successful.”’30 In other words, for the Plaintiff to succeed in his
Malpractice Case he must prove a case-within-a-case by showing that, but for the Defendants’
negligence, Plaintiff would have won the underlying Agent Case. “Thus, summary judgment is
appropriate (i) when the facts are so clear that reasonable persons could not disagree about the
underlying facts or about the application of a legal standard to the facts, and (ii) when the
proximate cause of an injury is left to speculation so that the claim fails as a matter of law.”31
a. The Underlying Agent Case
As set forth above, Plaintiff lost the Agent Case on summary judgment before
Judge Waddoups. Now, this Court must reevaluate Plaintiffs Agent Case based on
the facts before the Court and determine whether the outcome would have been
different due to the alleged malpractice of Defendants. As explained below, this
Court finds that the outcome would not have been different as Plaintiffs claims in
the Agent Case fail as a matter of law and not because his counsel failed to properly
prosecute his claims.
The underlying Agent Case is based on Plaintiffs claims against Coldwell
Banker for breach of contract, breach of implied covenant of good faith and fair
dealing, and breach of fiduciary duty. All three claims stem from Plaintiffs claim
that Coldwell Banker breached its contractual and fiduciary duties to Plaintiff by
“failing to properly review the REPC with Plaintiffs and failing to notify Plaintiffs
that the Buyers had inserted non-standard language in the REPC allowing them to
29 Kranendonk v. Gregory & Swapp, PLLC, 320 P.3d 689, 693 (Utah Ct. App. 2014) (quoting Harline
v. Barker, 912 P.2d 433, 439 (Utah 1996)).
30 Id.
31 Harline, 912 P.2d at 439.

SA 9

cancel the REPC based on their disapproval of any tests or evaluations.”32 In order
to succeed on Plaintiffs claims, Plaintiff must show that Coldwell Banker had a
contractual and/or fiduciary duty to notify Plaintiff of Section 8(e) because it was a
non- standard provision, that Coldwell Banker breached this duty, and Plaintiff was
damaged by the breach.
For each cause of action in the Agent Case, Plaintiff must prove how he was
damaged. In Plaintiffs Agent Case complaint, he claims that he was damaged
because he was unable to find another buyer, and he incurred approximately
$75,000 in attorneys’ fees in the Buyer Case.33 He claims that these damages were
the direct and proximate result of Coldwell Banker’s breach.34
“The general rule of damages is that damages for the breach of a contract
cannot be recovered unless they are clearly ascertainable, both in their nature and
origin, and unless it is established they are the natural and proximate consequences
of the breach and are not contingent or speculative.”35 “It is also well settled that
the amount of damages resulting from such a breach must be ascertainable with
some degree of certainty and may not be based on mere speculation and conjecture
alone.”36
Plaintiff claims that if Coldwell Banker would have notified him that Buyers
could cancel under Section 8(e), he would have been able to counter that provision.
And if that would have happened who knows if Buyers would have accepted,
rejected or countered. Further, Plaintiff claims that if Coldwell Banker would have
obtained a copy of the appraisal from Buyers when they summited the counter offer
to reduce the price or cancel, Plaintiff could have verified the appraisal and may
have accepted the reduced price offer. All such scenarios rely on multiple levels of
speculation and are inadmissible. Without the benefit of hindsight, there is no
telling if the Plaintiff would have acted differently than he did if Coldwell Banker
32
33
34
35

Glenn v. Kane, 2:i0cv726, Docket no. 1 (Complaint), f45.
See id. at
37 and 40.
See id. at U 46.
General Finance Corp. v. Dillon, 172 F.2d 924, 930 (10th Cir. 1949) (emphasis added).

36 Id
SA 10

had specifically told him Buyers could cancel under Section 8(e) or if they had
obtained a copy of the appraisal. Any evidence of what Plaintiff claims he would
have done now (with the benefit of hindsight) is all based on speculation and
conjecture. Without clearly ascertainable damages, Plaintiffs claims in the Agent
Case fail as a matter of law.
This is the same conclusion that Judge Waddoups reached in granting
summary judgment to Coldwell Banker in the Agent Case. This Court agrees with
Judge Waddoups finding that Plaintiffs Agent Case fails as a matter of law based
on his inability to prove damages. This inability to prove damages is not Defendants
fault, and the Court does not see any way Defendants could have established
damages based on the facts of the Agent Case. This Court cannot and will not reach
a different result here.
b. The Malpractice Case
Plaintiff claims that, but for his counsel’s malpractice in the Agent Case, he
would have prevailed. As discussed above, regardless of his counsel’s actions in the
underlying Agent Case, Plaintiffs claims failed as a matter of law due to the
speculative nature of the damages claimed. Thus, as a matter of law in the
Malpractice Case, Plaintiff cannot succeed on his malpractice claim because he
cannot show that he would have prevailed in the underlying Agent Case. All other
claims brought against Defendants by Plaintiff hinge upon Plaintiffs failed
malpractice claim. Therefore, no further analysis on Plaintiffs other claims in the
Malpractice Case is warranted. Accordingly, summary judgment in favor of
Defendants is appropriate.

RECOMMENDATION
For the foregoing reasons, the undersigned hereby RECOMMENDS that
l) Defendants’ Motion to Strike Plaintiffs Cross MSJ be GRANTED-in-PART by
striking Plaintiffs Cross MSJ as Plaintiffs Motion for Summary Judgment, and
SA 11

be DENIED-in-PART by allowing Plaintiffs Cross MSJ to stand as an
Opposition to Defendants’ Motion for Summary Judgment;
2) Defendants’ Motion to Extend Deadline to File Memorandum in Opposition to
Plaintiffs Cross Summary Judgment37 be DENIED; and
3)

Defendants’ Motion for Summary Judgment be GRANTED.

NOTICE

The Court will send copies of this Report and Recommendation to all
parties, who are hereby notified of their right to object.38 The parties must file any
objection to this Report and Recommendation within fourteen (14) days of service
thereof.39 Failure to object may constitute waiver of objections upon subsequent
review.
DATED this 1 March 2017.
/s/
Brooke C. Wells
United States Magistrate Judge

37 Docket no. 101.
38 See 28 U.S.C. § 636(b)(1); Fed. R. Civ. P. 72(b).
39 Id

SA 12

IN THE UNITED STATES DISTRICT COURT FOR THE DISTRICT OF UTAH,
CENTRAL DIVISION
*******

ENDRE GLENN (ProSe)
PLAINTIFFS OPPOSITON TO
MAGISTRATE JUDGE’S REPORT
AND RECOMMENDATION

Plaintiffs,
vs.

Case No. 2U5_cv00165
Brennan H. Moss (10267)
PIA ANDERSON DORIUS REYNARD
& MOSS

District Judge Dee Benson
Magistrate Brooke C. Wells

Defendants.

*******

Pursuant to Federal Rule of Civil Procedure 72(b) and Local Rule 72.1, Plaintiff
Endre’ Glenn objects to the Magistrate Judge’s report and recommendation (R&R)
(DKT. 119) filed March 1, 2017.
Disregarding the facts and fraudulent misrepresentation of the Buyer Judge
Robin Reese. Plaintiffs argument is not speculative but based on fraud.

Disregarding facts and evidence legal Malpractice case which transcends the
underlying case because the speculative nature makes the case unwinnable
therefore Attorney should have appropriately advised client.

SA 13

ARGUMENT
A.

DEFENDANT’S MOTION FOR SUMMARY JUDGMENT

I.

BACKGROUND

Plaintiff would like to clarify the facts of the case, terms and conditions of the
offer. The Plaintiff received an offer on Utah Standard REPC contract (effective
August 5, 2003) from Judge Robin Reese for $540,000. The contract terms and
conditions included a Loan Application & Fee Deadline of December 21, 2007, and
conditioned upon approval of any test or evaluations “deemed” necessary by the
buyers (EXHIBIT REPC).

Buyer’s submitted Addendum No. 3 December 28, 2007

of the contract that stated the purchase price to be $460,000 per appraised value. If
the seller does not agree to the new purchase price, contract will be cancelled.
Based on the terms and conditions of the REPC, any person would reach the
conclusion that the appraisal obtained by the buyers as stated in Addendum No. 3
was an appraisal from a lender. The Seller asked his real estate agent Donna Kane
what was the name of the lender who ordered the appraisal, she stated it
information was confidential. Buyer’s cancelled the contract.
Plaintiffs attorney Walter Keane sued the buyers for Breach of Real Estate
Purchase Contract, Breach of Implied Covenant of Good Faith and Fair Dealing,
The complaint also included general allegations! the Buyers — not their lender —
ordered an appraisal of the Property. Buyers never tendered a “Notice of Appraised
Value” as defined in the REPC. His amended complaint also dismissed following
defendants Susie Martindale, and Jodi Hansen, REMAX.
Plaintiff retained Attorney Jason K. Nelson to represent him in the
Interlocutory appeal to the Utah Supreme Court. The Utah Supreme Court found
in favor to the Buyers that REPC was unambiguous, and the Buyers were able to

SA 14

cancel the contract based on an appraisal under Section 8(e) of the REPC. Chief
Justice Nehring noted the following in his opinion: 1
We note that this debate about cancellation based on an appraisal has largely been resolved by
the newly revised, state approved REPC form. The revision eliminates Section 2.4 and provides
an appraisal condition in Section 8 that allows the buyer to cancel the REPC upon notice from a
lender or directly from an appraiser that the property has appraised for less than the purchase
price.

Contrary to the Utah Supreme Courts opinion the Utah Division of Real
Estate said the contract was ambiguous and required clarification in a July 2008
NEWS article about “Real Estate Purchase Contract Undergoes Major Revision
stated the following:2
......... Hard working practitioners have acquired practical experience regarding some unfortunate
situations that potentially could have been avoided or minimized were the language in the current
REPC modified. Some licensees have had to struggle with certain provisions that are contained in the
REPC that were either ambiguous, required clarification or otherwise had an undesired or
unintended consequence as a result of language that was either currently included or should
have been included in the existing state approved REPC.
Under the leadership the Utah Association of Realtors (UAR), a committee of dedicated industry
representatives devoted countless hours and held numerous meetings, resulting in a draft proposal
for a revised REPC.

Plaintiff retained attorney Brennan Moss of the law firm Pia, Anderson, and
Moss to file suit against Coldwell Banker Residential Brokerage for Breach of
Contract, Breach of Implied Covenant of Good Faith, and Fair Dealing, and Breach
of Fiduciary Duty. Attorney Brennan Moss was retained because of his ligation
experience with large Real Estate Brokerages. Defendant’s response to
Interrogatory #6 confirmed Brennan Moss experience litigating large real estate
entities. Their response to Interrogatory no. 7 shows they were aware of the
complications and difficulties of the litigation, including the speculation but

1 Glenn v. Reese, 225 P.3d. 185, 190 (Utah 2009)
2 EXHIBIT A Utah Division of Real Estate News July 2008

SA 15

proceeded with the litigation in spite of these hurdles knowing the case was not
viable and unwinnable3.
On or about September 2007, the Glenn’s were looking to sell their home.
They interviewed several real estate agents to help them list their home, find a
buyer, review real estate purchase contracts, prepare addenda to real estate
purchase contracts, and work through the purchase agreements. After interviewing
different real estate agents, the Glenn’s decided hire Donna Kane because of her
proclaimed “years and years’ of experience selling residential homes. They entered
into Listing Agreement with Donna Kane, Coldwell Banker Real Estate Brokerage
on or about September 13, 2007. The Glenn’s relied upon Donna Kane to provide
advice with respect to finding a buyer, reviewing offers, and selling the property.
The Utah Supreme Court found that ... 4
A real estate agent hired by a vendor is expected to be honest, ethical, and competent and is
answerable at law for his or her statuary duty to the public. Hermansen v. Tasulis 48 P.3d 235
241 (Utah 2002). Further, although real estate agent is not required to provide legal advise,
the agent has a duty to disclose to his principal vital difference in the terms and conditions of a
standard real estate purchase contract (REPC), and a REPC submitted by a potential buyer.

Pursuant to the listing agreement, and pursuant to Donna Kane’s statutory duty,
she had an obligation to provide competent advice regarding offers to purchase the
home.
Based on the terms and conditions of the REPC, a common person would reach the
conclusion the buyer Judge Robin Reese obtained an appraisal from a lender. He
misrepresented the fact that he did not apply for a loan. He never intended to apply
for a loan because in his April 2008 offer, he applied for the loan, and provided
declaration from the lender “Infinity Mortgage Company” that verified approval5.

3 Docket No. 95 EXHIBIT XIII
4 EXHIBIT B. Brennan Moss June 30, 2010 Demand Letter
5 EXHIBIT C Reese April 2007 Offer

SA 16

The Seller relied on the fraudulent misrepresent-tations, and Buyer subsequently
cancelled the contract.
Chief Justice Nehring in his opinion recognized that the current issues would
never have occurred because the new REPC (effective August 27, 2008) required the
buyer present to the seller “Notice of Appraised Value” from a lender or appraiser.
Therefore under the new REPC Judge Reese would have been required to provide
proper notice to cancel the agreement. Utah Association of Realtor stated contrary
to Utah Supreme Court opinion the contract was ambiguous and required
clarification.
For years the Utah Standard REPC has only applied to 50% buyers
purchasing real estate property through a lender. Considering the negative impact
on the public, the Plaintiff expected they would have acted sooner. Apparently the
old standard REPC never contemplated how to handle someone purchasing
property with cash or self-financed buyer, and properly terminate a contract. This
information was not readily available to the public. Judge Robin Reese exploited
this nonpublic information, a deficiency, loophole, error or omission in the Utah
Standard Real Estate Purchase contract, and violated the Utah Code of Judicial
Conduct by acting on non-public information acquired in his judicial capacity.
According to Utah Courts, Code of Judicial Conduct, Chapter 12, A judge
shall not intentionally disclose or use nonpublic information acquired in a judicial
capacity for any purpose unrelated to the judge’s judicial duties.
Judge Samuel McVey noted in the September 18, 2008 hearing regarding damages6.
THE COURT: Have you clients sold their home, or are they still in the home?
MR. KEANE: They have not sold the home.
THE COURT: That would be hard to do now.. Yeah, this is right about when the real estate
market tanked, last July 2007.

Since January 2008 through April 2013, the Plaintiff paid monthly loan,
maintenance, and utilities to carry the property which doesn’t include the lost value
6 EXHIBIT G Utah Fourth Judicial District Court, September 18, 2008 Transcript

SA 17

of the property because of the buyer’s fraudulent misrepresentation, and decision
not to follow the terms and conditions of the contract. Had the buyer truly applied
for the loan on December 21, 2007, the appraisal would have come from a noninterested third party lender, an arm length transaction, not the buyer who directly
benefited from the significantly low appraisal. The Judge exploited an unfair
bargaining position.
On December 21, 2011, Honorable Judge Waddoups heard Coldwell Banker’s
motion for summary judgment. At the hearing, Judge Waddoups found there was
no admissible evidence of damages, and the damages were far too speculative to
sustain a cause of action. Further, Judge Waddoups found that Donna Kane,
Coldwell Banker Residential Brokerage did not have a duty to specifically point out
Section 8(e) of the REPC or provide any legal advice as Plaintiff was charged with
having read the REPC, and plenty of opportunity to counter at that time.
When the Plaintiff brought the complaint against his real estate broker
Donna Kane, and Coldwell Banker Residential Brokerage, and the Court heard the
motion for summary judgment, the property was still on the market. The Plaintiff
did not sell the property until April 2013. So, the Plaintiff could not quantify
damages because his attorney failed to retain a real estate damage expert to
quantify those damages as he apparently misled his client.
Though Attorney Brennan Moss raised the following issue in his demand
letter to Donna Kane about Coldwell Banker Residential Brokerage obligation to
point out vital differences in the terms and conditions of a standard real estate
purchase contract and one submitted by a potential buyer, he never raised the issue
during the summary judgment hearing.
The Utah Supreme Court found that... 7

7 EXHIBIT B

SA 18

A real estate agent hired by a vendor is expected to be honest, ethical, and competent an is
answerable at law for his or her statuary duty to the public. Hermansen v. Tasulis 48 P.3d 235
241 (Utah 2002). Further, although real estate agent is not required to provide legal advise, the
agent has a duty to disclose to his principal vital difference in the terms and conditions of a
standard real estate purchase contract (REPC), and a REP submitted by a potential buyer.
Also Donna Kane’s July 1, 2016 deposition and admission confirmed her
obligation to point out this vital difference, and her obligation to be honest, ethical
and competent. According to Susie Martindale’s deposition Donna Kane never
questioned if buyer applied for a loan or whether the buyer had a lender.
DEPOSITION Donna Kane Coldwell Residential Brokerage8
Q: (By Mr. Glenn) • We'll move on to Question -Number #4. Now, regarding Section 8(e), do you
have or do you believe that you had any duty to discuss or explain Section 8(e) of the REPC with
the seller? (Transcript Pg 19, Line 5)
A: Yes, I do.
Q: (By Mr. Glenn) • All right. • Shortly after you received a call from the seller -- shortly after
you called the seller, Donna, about the low appraisal, he asked you who appraised the property
and you said it was confidential. Please explain why this information is confidential? (Transcript
Pg 27, Line 6.)
A: Because I'm not representing the buyer. I -am representing the seller. - And that information
is not privy to me.
DEPOSITION Susie Martindale REMAX Masters9
Q: If the lender had — if the buyer has a lender, if the seller asked you who is the lender do you
tell him? (Transcript Pg 61 Line 1)
A: Yes.
Since Judge Waddoups found that damages were far too speculative to
sustain a cause of action, Attorney Brennan Moss, and law firm, PIA, ANDERSON,
REYNARD, AND MOSS should have known if it was a viable, unwinnable case, and
advised their client appropriately, instead of running up a $20,000 legal. Over 50%
of the charges billed against the account occurred after the December 21, 2011
summary judgment motion.
Utah Supreme Court, and Judge Waddoups discussed the seller’s
responsibility of reading the contract, and understanding its terms. However, the
Docket No. 95 Cross Motion for Summary Judgment Exhibit XIV
Docket No. 95 Cross Motion for Summary Judgment Exhibit XV
SA 19

REPC had been effective since August 2003 for practically 5 years. Coldwell
Banker Real Estate agent Donna Kane and broker Kevin Larsen each had over 10
years of real estate experience, neither one of them understood the terms and
conditions presented in the REPC. Donna Kane finally admitted in her deposition,
she should have identified REPC 8(e). The broker Kevin Larsen, testified the
buyers cancelled pursuant to 2.4 appraisal condition than section 8(e).10 Why would
the Utah Supreme Court, and U.S._District Judge Waddoups hold the seller to a
higher standard of understanding the contract than the professionals whose
fiduciary responsibility is to understand terms and conditions contract and
appropriately advise their client? It's simply unfair, and unjust to hold the Plaintiff
accountable for a poorly drafted ambiguous Utah standard contract that required
clarification, or otherwise had an undesired or unintended consequence as a result
of language that was either currently included or should have been included in the
existing state approved REPC. Judge Reese offer stipulated he would apply for a
loan which he did in the April 17, 2007 offer but intentionally avoided in his
December 19, 2007 offer11. He had no intention to apply for a loan12. He
intentionally fraudulent misrepresented that fact which irreparably harmed the
Plaintiff. Judicial Conduct of Code Chapter 12 required him not to act on this non­
public information.
The Plaintiff brings legal malpractice suit against his attorney for
professional negligence, breach of fiduciary duty, breach of contract, and breach of
implied covenant of good faith and fair dealing. The Plaintiffs claim the
Defendant’s conducted no fact or expert discovery, the outcome of the case would
have been different, and if the Defendant knew the case was not viable and
unwinnable then he should have advised his client not to pursue the case, rather
than incur $20,000 of legal fees. The Defendant’s claim the outcome of the
underlying case would not have been different based on Judge Waddoups ruling!
10 EXHIBIT F Kevin Larsen, Declaration October 20, 2008
11 EXHIBIT C
12 EXHIBIT D

SA 20

Plaintiff failed to state a claim for relief could be granted, Plaintiff read and
understood the contractual terms, and there was no special or additional duties
charged to his real estate agent.
The failure to state a claim arose because of the Plaintiffs attorney
negligence failed to obtain a real estate damage expert, the Plaintiffs property was
still on the market. His agent’s Kevin Larsen, and Donna Kane read the contract
but with 20 years of real estate experience failed to advise their client of the terms
and conditions of the contract. Regarding Donna Kane’s or Coldwell Banker’s
responsibility or duties, she admitted to her responsibility to point out section 8(e)
of the contract.

II.

LEGAL STANDARDS

Rule 56(c) of the Federal Rules of Civil Procedure provides that summary
judgment “shall be rendered forthwith if the pleadings, depositions, answers to
interrogatories, and admissions on file, together with the affidavits, if any, show
that there is no genuine issue as to any material fact and that the moving party is
entitled to a judgment as a matter of law13.
If defendant in a run-of-the-mill civil case moves for summary judgment or
for directed verdict based on the lack of proof of a material fact, the judge must ask
himself, not whether he thinks the evidence unmistakably favors one side or the
other, but whether a fair-minded jury could return a verdict for the plaintiff on the
evidence presented14.

13 Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-248 (1986)
14 Fed.Rules Civ.Proc.Rules 50(a), 56(c),

SA 21

III.

DISCUSSION

Causation is an essential element in any legal malpractice case. When the
plaintiff alleges that an attorney mishandled a lawsuit, in order to prove causation
the plaintiff must prove that he would have prevailed in the underlying lawsuit.
The underlying lawsuit in a legal malpractice case is known as the “case-withhracase.” Such legal malpractice cases are often said to be two cases in one.
The Supreme Court of Virginia held that in a legal malpractice case that
involves a case within a case,' the plaintiff must present virtually the same evidence
that would have been presented in the underlying action. Similarly, the defendant
is entitled to present evidence and assert defenses that would have been presented
in the underlying action15.
In an action for legal malpractice, a plaintiff must establish that the
defendant failed to exercise the ordinary reasonable skill and knowledge commonly
possessed by a member of the legal profession, and that the attorney's breach of
that duty proximately caused the plaintiff to sustain actual and ascertainable
damages16.
A.

The Underlying Agent Case

The Magistrate Judge found that the Plaintiff lost summary judgment
motion in the case against his real estate agent as a matter of law and not because
his counsel failed to properly prosecute his claims.
Coldwell Banker’s failure to properly review the REPC with the Plaintiffs
and notify them of the ambiguous language of the REPC allowed the buyers to
cancel the contract with an undisclosed appraisal the buyer personally obtained, not
an appraisal from the lender as he originally agreed in the terms and conditions of
the contract. Donna Kane, Coldwell Banker Residential Brokerage acknowledged
that they should have pointed out section 8(e) of the REPC. The Plaintiff lost the
15 Whitley v. Chamouris, 574 S.E.2d 251, 265 Va. 9 (2003)
16 Hayes v. Bello, 23 Misc. 3d 534, 881 N.Y.S.2d 609 (Sup 2009)

SA 22

benefit of the sale, and incurred additional maintenance cost to carry the property
until it’s sold. At the time of Judge Waddoups heard the motion for summary
judgment, the carrying costs maintenance on the property was three years. Though
Brennan Moss advised the Plaintiff of the need to retain a real estate damage
expert, he lied to his client and never retained such an expert.
The buyer Judge Robin Reese never intended to honor the terms and
conditions of the contract. He stated on December 21, 2007 he would apply for a
loan. He did not apply for the loan and intentionally deceived the Seller about his
intentions in entering the contract. When the Seller asked a simple question of his
agent who appraised the property? She said it was confidential; that information is
not privy to her though Susie Martindale stated REMAX would provide that
information if asked by an agent. The fraudulent misrepresentation by the Reese
irreparably harmed the Plaintiff. According to Judge Samuael McVae at the
September 21, 2008 hearing the market tanked and it was virtually impossible to
sell the property. The Plaintiffs claim is not based on speculation of whether or not
the Reese would have accepted the offer but their deception and fraudulent
misrepresentation in entering the contract when they had no intention of complying
with the loan and finance obligation and obtained their own appraisal. The Court
said the Plaintiffs read and understood the contract. Well buyer should have
applied for the loan as specified in the terms and conditions of the contract by
December 21, 2007. Furthermore, Judge Reese knowledge and expertise as a Judge
per the Judicial Code of Conduct required him not to act on this non-public
information, i.e. ambiguity of the standard Utah Real Estate Purchase contract.
Under Utah law, a plaintiff must prove the following element to establish fraud17.
(1) That a representation was made;
(2) Concerning a presently existing material fact;
(3) which was false;

17 Prince v. Bear River Mutual Ins. Co., 2002 UT 68 f 41, 56 P.3d 524, 536

SA 23

(4) which the representor either (a) knew to be false or (b) made recklessly,
knowing that he had insufficient knowledge upon which to base such
representation;
(5) for the purpose of inducing the other party to act upon it;
(6) that the other party, acting reasonably and in ignorance of its falsity;
(7) did in fact rely upon it;
(8) and was thereby induced to act;
(9) to his injury and damage

A jury looking at the terms and conditions of the contract would reach the
same conclusion, Judge Reese fraudulently (intentionally) misrepresented his
actions, a lender appraised the property but according to the trial in Fourth District
Court in-fact he obtained his own appraisal, subsequently cancelling the contract
under a non-public provision, i.e. that allowed cancellation without providing proper
notice of the appraised value. The new standard Utah Real Estate Purchase
Contract closed this loophole by revising the language such that after completion of
an appraisal by a licensed appraiser, buyer receives written notice from a lender or
appraiser the property appraised for less than the purchase price (Notice of
Appraised Value”) the buyer may cancel REPC by providing written notice to Seller
(with a copy of the Notice of Appraised Value)

Chief Justice Nehring Utah

Supreme Court noted in his opinion the resolution of this issue by the new version
of the REPC18.
B.

The Malpractice Case

This Court granted the Defendant’s “death penalty” discovery sanction against the
Plaintiff for failure to produce expert reports pursuant to the scheduling order. The
Plaintiff filed the expert report September 30, 2016, three days before the discovery
period expired, and more than 15 days before deadline for dispositive motions. The
Plaintiff encountered difficulty retaining legal malpractice expert witness because
practically all declined representation because one of the parties of the litigation,

is EXHIBIT E. (Par 8.2 (a))

SA 24

the buyer, is a Judge in Utah Third District Court. When the legal malpractice
expert witness accepted the case, there was less than 15 days before the expert
report was due on September 1, 2016. None of the twelve real estate expert
witnesses the Plaintiff interviewed agreed to accept the engagement due to the
buyer is a Judge in Utah Third District Court. A discovery sanction must be just, a
direct relationship must exist between the improper conduct and the sanction
imposed, and the sanction should be no more severe than necessary to satisfy its
legitimate purposes. 19
Sanctions, that adjudicate a claim and preclude presentation of the merits of the
case, are often referred to as "death penalty" sanctions. When a trial court strikes a
party's pleadings and dismisses its action or renders a default judgment against it
for abuse of the discovery process, the court adjudicates the party's claims without
regard to their merits but based instead upon the parties' conduct of discovery.
"Death penalty" sanctions are harsh and may be imposed as an initial sanction only
in the most egregious and exceptional cases "when they are clearly justified and it is
fully apparent that no lesser sanctions would promote compliance with the rules.20
Generally, courts must impose--not just consider-'lesser sanctions before resorting
to the "death penalty."21
In the Court’s May 17, 2016 order cautioned both parties to follow the rules of
procedure that govern all litigants and urged parties to timely comply with Courts
Order, and Federal Rules of Civil Procedure.22. On July 28, 2016 the Court entered
an amended scheduling order. Neither order contemplated or warned the Plaintiff of
“death penalty discovery sanctions for his non-compliance with the Court Order, or
contemplated lesser sanctions. When causation is beyond jury’s common
understanding, expert testimony is necessary in legal malpractice claim. Sanctions
which terminate presentation of the merits of a party’s claim “must be reserved for
19 TransAmerican Natural Gas Corp. v. Powell, 811 S.W.2d 913, 917 (Tex. 1991)
2° GTE Commc’ns Sys. Corp. v. Tanner, 856 S. W.2d 725, 729 (Tex. 1993)
21 TransAmerican Natural Gas Corp. v. Powell, 811 S.W.2d 913, 917 (Tex. 1991)
22 Docket no. 66

SA 25

circumstances in which the party so abused the rules of procedure, despite
imposition of lesser sanctions, that the party’s position can be presumed to lack
merit.23
Though the Court found the Plaintiffs claims failed as a matter of law due to the
speculative nature of the damages claimed; The exclusion of the expert witness
report raised an important issue. The standard of care provided Attorney Brennan
Moss, and law firm PIA ANDERSON DORIUS REYNARD & MOSS LLC fell below
the standard of care. According to the expert witness report Defendants committed
legal malpractice and were in breach of their fiduciary duties to the Plaintiff, as
alleged in the complaint, and discussed in detail in the report.24
If the position of the Defendants that the litigation was not viable, per Judge
Waddoups order granting summary judgment, i.e. a nonwinnable case, then the
Defendant’s breached that duty by failing to communicate that fact to their clients.
If the case was not viable those problems should have been communicated early, not
after Defendant’s billed $20,000 in legal fees against the case25.
Where the attorney's malpractice was itself reckless conduct involving a gross
deviation from the applicable standard of care, rather than mere negligence, this
fact may support an award of punitive damages against the attorney.26

23 Braden v. Downey, 811 S.W.2d 922, 929 (Tex. 1991)
24 Docket No. 84
25 EXHIBIT H
26 Horn v. Wooser, 2007 WY 120, 165 P.3d 69 (Wyo. 2007)

SA 26

CONCLUSION
For the foregoing reasons, the Court should reject the Magistrate Judge’s Report
and Recommendation (Docket No. 119), DENY Defendant’s motion for summary
judgment, and GRANT summary judgment for the Plaintiff.
Dated this

14

day of March ,

2017

Respectfully Submitted,
/ s/
Endre Glenn
Plaintiff (ProSe)

SA 27

CERTIFICATE OF SERVICE

I hereby certify on 14th day of March 2017 I served the Defendant by United States
First Class Mail, postage prepaid_at the following address:

William O. Kimball (9460)
PIA ANDERSON DORIUS REYNARD & MOSS LLC
136 E. South Temple, Suite 1900
Salt Lake City, Utah 84111
bkimball@namhlaw.com

/s/
Endre’ Glenn

SA 28

IN THE UNITED STATES DISTRICT COURT, DISTRICT OF UTAH CENTRAL
DIVISION

MARGARET GLENN and ENDRE
GLENN
ORDER
Plaintiffs,
vs.

Case No. 2U5-cv00165

Brennan H. Moss (10267)

Judge Clark Waddoups

PIA ANDERSON DORIUS REYNARD
& MOSS
Defendants.

Before the court is Defendants' motion for summary judgment. For the reasons
stated on the record, the motion is GRANTED. (Dkt. No. 14.)

DATED this 21st day of December, 2011.
BY THE COURT:
Is/

Clark Waddoups
United States District Court Judge

SA 29

